<html>
<title> - HOUSING IN AMERICA: OVERSIGHT OF THE U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     HOUSING IN AMERICA: OVERSIGHT
                       OF THE U.S. DEPARTMENT OF
                     HOUSING AND URBAN DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 21, 2019
                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-27
                           
                           
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
                 
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-929 PDF                WASHINGTON : 2020  




                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 21, 2019.................................................     1
Appendix:
    May 21, 2019.................................................    65

                               WITNESSES
                         Tuesday, May 21, 2019

Carson, Hon. Dr. Benjamin S., Sr., Secretary, U.S. Department of 
  Housing and Urban Development..................................     4

                                APPENDIX

Prepared statements:
    Beatty, Hon. Joyce...........................................    66
    Carson, Hon. Dr. Benjamin S..................................    67

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of the Cedar Band of Paiutes' CBC Mortgage 
      Agency (the ``Chenoa Fund'')...............................    77
    New York Times article entitled, ``What Will It Cost to Fix 
      New York's Public Housing?'', dated July 2, 2018...........    98
Tlaib, Hon. Rashida:
    Detroit Free Press article entitled, ``Controversial 
      surveillance program coming to Detroit public housing,'' 
      dated November 9, 2018.....................................   100
Carson, Hon. Dr. Benjamin S., Sr.:
    Written responses to questions for the record submitted by 
      Chairwoman Waters..........................................   105
    Written responses to questions for the record submitted by 
      Representative Beatty......................................   136
    Written responses to questions for the record submitted by 
      Representative Foster......................................   138
    Written responses to questions for the record submitted by 
      Representative Chuy Garcia.................................   140
    Written responses to questions for the record submitted by 
      Representative Hill........................................   142
    Written responses to questions for the record submitted by 
      Representative Maloney.....................................   143
    Written responses to questions for the record submitted by 
      Representative McAdams.....................................   144

 
                     HOUSING IN AMERICA: OVERSIGHT
                       OF THE U.S. DEPARTMENT OF
                     HOUSING AND URBAN DEVELOPMENT

                              ----------                              


                         Tuesday, May 21, 2019

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the committee] presiding.
    Members present: Representatives Waters, Maloney, 
Velazquez, Sherman, Meeks, Clay, Scott, Green, Cleaver, Foster, 
Beatty, Vargas, Gottheimer, Gonzalez of Texas, Lawson, Tlaib, 
Porter, Axne, Casten, Pressley, McAdams, Ocasio-Cortez, Wexton, 
Lynch, Adams, Dean, Garcia of Illinois, Garcia of Texas, 
Phillips; McHenry, Wagner, Posey, Luetkemeyer, Duffy, Stivers, 
Barr, Tipton, Williams, Hill, Emmer, Zeldin, Loudermilk, 
Mooney, Davidson, Kustoff, Hollingsworth, Gonzalez of Ohio, 
Rose, Steil, Gooden, and Riggleman.
    Chairwoman Waters. The Financial Services Committee will 
come to order.
    Thank you for your patience, Mr. Secretary. We were just 
working out how we are going to proceed today. We have a 
classified briefing that is extremely important that will be 
called about 1:00 or 1:30, and we are not sure how long it is 
going to last. If it lasts beyond an hour, we will come back, 
and we will relieve you if you are prepared to go. We will not 
ask you to stay beyond 1 hour. If it is over in 1 hour, we will 
come back, and we will continue with the hearing. Otherwise, we 
will let you know, and you can make a decision.
    Is that understood by everybody? Thank you very much.
    Today's hearing is entitled, ``Housing in America: 
Oversight of the United States Department of Housing and Urban 
Development.''
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for 4 minutes to give an opening 
statement.
    Today, this committee convenes for a hearing to conduct 
oversight over the United States Department of Housing and 
Urban Development (HUD). Our sole witness is Dr. Benjamin 
Carson, the Trump Administration's HUD Secretary. I am very 
concerned about Secretary Carson's actions in leading HUD. 
Specifically, under his leadership, HUD has put forth an 
outrageous plan that would triple rent for the lowest-income 
households and put 1.7 million Americans at risk of eviction 
and homelessness at a time when we are in the midst of a 
national homelessness and housing affordability crisis.
    His most recent proposed budget would cut HUD funding by 18 
percent. That budget proposal includes the elimination of new 
funding for the National Housing Trust Fund and the Capital 
Magnet Fund, essential programs that are in place to increase 
the supply of affordable housing. As I have said before, what 
we need is a real investment in affordable housing programs, 
not senseless budget cuts.
    Under Secretary Carson's leadership, HUD has diminished and 
compromised fair housing protections. Secretary Carson has 
halted the implementation of HUD's Affirmatively Furthering 
Fair Housing rule, which is an important rule finalized by the 
Obama Administration that provides communities with greater 
clarity on how to help break down residential segregation and 
barriers to fair housing opportunities.
    I am also concerned by the reports about delays in disaster 
recovery funds reaching Puerto Rico and delays in the HUD 
Office of the Inspector General inquiry into the matter due to 
a lack of timely cooperation by HUD.
    I was also very troubled by Secretary Carson's recent cruel 
proposal to terminate housing benefits for families that 
include individuals with mixed immigration statuses. Of course, 
existing law prevents Federal housing programs from subsidizing 
individuals with ineligible immigration status. Prorated rental 
assistance allows mixed immigration status families to remain 
together while exclusively subsidizing only those family 
members with eligible status. The Trump Administration proposal 
puts mixed status families at risk of being evicted, separated, 
and left homeless.
    Secretary Carson, across the board, these actions are 
inconsistent with HUD's mission. Instead of helping the hard-
working Americans and vulnerable families that the agency is in 
place to serve, the Trump Administration is actively causing 
harm, and striving to make housing less available, affordable, 
and fair. Today, you will face some tough questions about your 
leadership decisions and mismanagement of the agency.
    The Chair now recognizes the ranking member of the 
committee, the gentleman from North Carolina, Mr. McHenry, for 
5 minutes for an opening statement.
    Mr. McHenry. Thank you, Chairwoman Waters.
    And thank you, Secretary Carson. Thank you for your service 
to the American people and our government.
    HUD was created more than 50 years ago by President Lyndon 
Johnson who intended the new agency to be a major tool in 
combating poverty, rebuilding our cities, and making housing 
more affordable for all.
    To that end, HUD is involved in several programs, including 
Federal public and Indian housing efforts, community planning 
and development initiatives, fair housing and equal opportunity 
enforcement, FHA mortgage insurance, Ginnie Mae securitization 
of federally guaranteed mortgages, and, more recently, disaster 
recovery efforts, yet HUD also finds itself at a crossroads. It 
must meet the 21st Century expectations of the American people 
in a 20th Century framework with 19th Century technology. This 
is not a recipe for success.
    Instead of looking for easy answers to complex problems, 
Secretary Carson did what Dr. Carson has done countless times 
before while he was a surgeon. He rolled up his sleeves and set 
to work to find things, no matter how big the challenge, and 
there have been challenges.
    He has implemented reforms to reduce fraud and abuse in how 
we finance mortgages through FHA and Ginnie Mae. He reversed a 
decade-long trend by once again hiring a Chief Financial 
Officer for HUD to protect taxpayers and combat wasteful 
spending.
    HUD also stood up for housing when it filed suit in 2018 
against the New York City Housing Authority for routinely and 
flagrantly failing to uphold its legal obligations under the 
Fair Housing Act of 1937. Until HUD stepped in, the New York 
City Housing Authority put real people in harm's way, serious 
harm's way, and then repeatedly misled HUD about its 
wrongdoings.
    He also took the fight against housing discrimination into 
the 21st Century by scrutinizing digital ads that may have 
violated the Fair Housing Act and were modern day efforts at 
redlining.
    Additionally, Secretary Carson has worked to promote the 
private-public partnership model of advancing social and 
economic prosperity for all Americans by chairing the 
interagency White House Opportunity and Revitalization Council, 
which works to help distressed communities stimulate 
development and entrepreneurship through new tools like 
Opportunity Zones. Opportunity zones are a welcome addition in 
our Tax Code and are having impacts in our communities but will 
have a much stronger impact in the coming decades.
    I applaud Secretary Carson for his efforts to bring much-
needed reform to the agency, including modernizing old 
programs, updating regulations, and knocking down barriers to 
individual local investment.
    Last week, I sent a letter to Secretary Carson urging his 
swift movement on several pending regulations, finalizing new 
rules that reflect modern realities on topics like 
Affirmatively Furthering Fair Housing and disparate impact will 
go a long way to helping local communities and consumers. I 
welcome you finalizing those rules in a timely manner.
    The path to reform isn't always smooth. I think there are 
reasonable questions regarding how HUD communicates information 
and how it handles the unprecedented amount of disaster aid it 
administers. I look forward to hearing the Secretary's response 
to those questions in particular.
    Like many other Federal programs, we must recognize that 
housing in the 21st Century is a partnership between Federal, 
State, and local governments, one that needs to be 
collaborative for it to be successful. We must do our part to 
achieve bipartisan results, to help those who are homeless get 
in sustainable housing. We must do our part to modernize the 
Federal footprint with changes in law, and the Executive Branch 
must do its part in changes to regulation to meet these 
challenges.
    As Secretary Carson has said, we must leverage outside 
public and private investment in addition to Federal funds to 
meet our housing challenges. I concur, and I expect a 
modernized HUD to lead the way towards the future.
    And, with that, I yield back the balance of my time.
    Chairwoman Waters. Thank you.
    The Chair now recognizes the Chair of our Subcommittee on 
Housing, Community Development, and Insurance, Mr. Clay, for 1 
minute.
    Mr. Clay. Thank you, Madam Chairwoman, and as we mark the 
51-year passage of the Fair Housing Act, there is still much 
work to be done to promote and ensure fair housing in America. 
In fact, as I noted in recent conversations, residents in my 
district in the community of Wellston, Missouri, are facing the 
prospect of dislocation and upheaval.
    Although we have had conversations, I want to make it clear 
for the record that I fully expect HUD to follow through on any 
and all commitments made and work with my staff and me to 
ensure that the residents have access to affordable housing. I 
hope that we can find a solution, such as a grand family 
development or usage of Section 202 housing, and I stand at the 
ready to work with HUD.
    And, with that, Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you.
    I want to welcome to the committee our witness, Dr. 
Benjamin S. Carson, Sr., the Secretary of Housing and Urban 
Development. He has served in his current position since 2017. 
Mr. Carson has testified before the committee on previous 
occasions, and I do not believe he needs further introduction.
    Without objection, your written statement will be made a 
part of the record.
    Secretary Carson, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF THE HONORABLE DR. BENJAMIN S. CARSON, SR., 
  SECRETARY, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Secretary Carson. Thank you, Chairwoman Waters, Ranking 
Member McHenry, and members of the committee. Thank you for the 
opportunity to appear before you today to discuss housing in 
America.
    Let me begin with fair housing. In so many ways, we can't 
consider our housing markets healthy unless those markets are 
also fair. In today's interconnected electronic world, 
discrimination can take less obvious forms. That is why I 
initiated an investigation into Facebook and, 2 months ago, 
charged Facebook with violating the Fair Housing Act by using 
its social media platform to encourage, enable, and cause 
housing discrimination. Using a computer to limit a person's 
housing choices is just as discriminatory as slamming a door in 
someone's face.
    This year, HUD is also placing a special focus on 
protecting the rights of individuals to feel safe and secure in 
their homes, free from sexual harassment.
    Turning to housing finance, HUD oversees $1.4 trillion in 
Federal Housing Administration mortgage insurance and more than 
$2 trillion in Ginnie Mae mortgage-backed securities. 
Considering HUD's critical role in supporting affordable and 
sustainable mortgage finance, it is essential that housing 
finance reform efforts take a comprehensive view of the 
marketplace.
    President Trump recently signed a memorandum directing 
Secretary Mnuchin and myself to develop a housing finance 
reform plan. Our plan will ensure that FHA and Ginnie Mae 
assume primary responsibility for providing housing finance 
support to low- and moderate-income families that cannot be 
fulfilled through traditional underwriting.
    In some of our housing markets, we are also struggling 
against the strong headwinds of disaster. In the time I have 
been Secretary of HUD, this nation has experienced several 
major disasters. In response, President Trump has signed into 
law critical emergency funding to support long-term recovery 
and directed HUD to allocate these resources among the hardest-
hit States. HUD has fully allocated approximately $7.4 billion 
through our CDBG-DR program. This money can be used today to 
help rebuild homes, restore businesses, and repair or replace 
damaged infrastructure. In addition, we have reviewed and 
approved State and territorial action plans for another $10 
billion. Recovering from a major disaster is never easy. I want 
to assure this committee that HUD is doing everything we can to 
help every grantee accelerate the pace of recovery.
    No discussion of housing would be complete without 
discussing the absence of housing. Homelessness continues to be 
a vexing problem in this country, but I am encouraged to report 
to you that homelessness is not an intractable problem. As a 
nation, we have managed to cut veterans' homelessness in half 
since 2010. Homelessness among families with children is down 
nearly 30 percent, and chronic homelessness is down more than 
16 percent.
    Another area where I believe we can make a difference is 
ensuring that HUD-assisted housing is decent, safe, and 
healthy. Shortly after I took office, I ordered a wholesale 
reexamination of how the Department conducts inspections of 
public housing as well as private housing under Section 8 
contracts, and we are moving quickly to prevent carbon monoxide 
poisoning in HUD-assisted housing.
    Regrettably, there is currently no universal Federal 
requirement that carbon monoxide detectors be installed in all 
HUD-assisted housing. That is wrong. Whether through regulation 
or legislation, it is our intention to require working carbon 
monoxide detectors in HUD-assisted housing, whether State or 
local law requires it or not. And to assist public housing 
authorities (PHAs) with the purchase and installation of carbon 
monoxide detectors, HUD is providing $5 million for this simple 
life-saving device.
    Finally, let me turn to something that is rather obvious to 
all of us. In many parts of our country, there is an affordable 
housing crisis. The Federal Government cannot solve this 
problem alone. Let me tell you about a few things we are doing 
at HUD to find a solution.
    To date, our rental assistance demonstration has preserved 
nearly 114,000 units of public housing and generated more than 
$7 billion in construction activity to revitalize these units 
or replace them altogether. We are also very excited at the 
potential for up to $100 billion in capital investment in 
Opportunity Zones made possible by the tax reform spearheaded 
by President Trump. And HUD is proposing a new rule to ensure 
taxpayer-supported housing supports those who are legally 
entitled to it. Given the overwhelming demand for our programs, 
the law requires that we devote ourselves to legal residents 
who have been waiting, some for many years, to access 
affordable housing.
    Before I conclude, I want to thank the many Members from 
both parties who have taken the time to meet with me during the 
past 2 years and who are working every day to find common 
ground in support of safe, decent, and affordable housing. The 
work isn't easy, but nothing worthwhile ever is. Thank you.
    [The prepared statement of Secretary Carson can be found on 
page 67 of the appendix.]
    Chairwoman Waters. Thank you very much. I now recognize 
myself for 5 minutes for questions.
    On April 25, 2018, you unveiled a proposal that would 
triple rents for the lowest-income HUD residents. Previously, 
when you testified before this committee, I explained to you 
what your proposal would mean for a low-income HUD-assisted 
senior in my district named Larry. He would see an increase in 
his rent of around $80, and because he lives on a fixed income 
of just $1,015, this would be devastating for him.
    You demonstrated that you did not fully understand the 
impact of your proposal when you responded to my question by 
saying that you did not think it was a ``typical situation.'' 
But according to the Center on Budget and Policy Priorities, 
the average rent increase for seniors under your proposal would 
be $83 or a 30-percent increase.
    Dr. Carson, we are currently experiencing an affordable 
housing crisis. But again this year, you proposed the same rent 
increases in HUD's 2020 budget request. I cannot understand why 
you would make a family choose between eating or staying 
housed. Do you understand the impacts of your proposal, and do 
you continue to defend it?
    Secretary Carson. Well, first of all, thank you for the 
work that you have done on behalf of poor people in our 
country.
    As far as our proposal is concerned, we are talking about 
increasing rent for the people who pay the minimum rent, and we 
have protected the elderly and the disabled, hold them 
completely harmless in that regard. People who pay $25 to $50 a 
month have been asked to contribute more in order to help 
sustain the program and, also, to encourage them to go out and 
seek employment.
    We are talking about work-able people. We are not talking 
about people who have to take care of others or have young 
children. We are talking about people who have perfectly 
healthy bodies and have opportunities available to them--
    Chairwoman Waters. Before you continue on, Mr. Secretary, 
have you determined for those for whom you are asking an 
increase what their income is and where the money would come 
from? Are these people on fixed incomes, some of them?
    Secretary Carson. We have made a provision, a hardship 
provision for anybody who is incapable of doing that, but--
    Chairwoman Waters. What about people on fixed incomes? Are 
they asked to pay an increase in rent?
    Secretary Carson. We have made provisions for anybody who 
cannot meet the income that we have asked for, but we have 
also--this is part of a comprehensive program. The rent 
proposal is to start the discussion. We need to have a 
discussion with lawmakers on what to do because we have so many 
perverse incentives in place. For instance, if you make more 
money, you have to report that, so your rent can go up. That is 
a ridiculous thing--
    Chairwoman Waters. Okay. Mr. Secretary, the example that I 
gave was a senior, not a work-able household, and I am really 
concerned about that because people on fixed incomes don't have 
any money for an increase. They can't afford an increase, and I 
would like to know exactly what you are doing with people on 
fixed incomes.
    Secretary Carson. As I said before, the elderly and the 
disabled are completely protected in the plan that we are 
proposing.
    Chairwoman Waters. So they are exempted from any increase?
    Secretary Carson. They have no increase.
    Chairwoman Waters. They are exempted from any increase. Is 
that correct?
    Secretary Carson. We have protected them from any increase.
    Chairwoman Waters. Okay. Continue with your explanation.
    Secretary Carson. And as I was saying, if you make more 
money, you are penalized for that. If you bring another income-
producing person into your environment, you are penalized for 
that. You have to report that so your rent can be raised. Don't 
even think about getting married. You will probably lose all of 
your subsidies altogether.
    These kinds of things have been in our system for a long 
time. This is all part of a comprehensive plan in order to 
change that scenario--
    Chairwoman Waters. I hate to keep interrupting you, but I 
just got another fact. The average rent increase for a 
household headed by a person with a disability is a 26-percent 
increase. Are you saying this is incorrect?
    Secretary Carson. I am saying that we have protected the 
elderly and the disabled from increases.
    Chairwoman Waters. I really don't know what that means.
    Secretary Carson. That means they are not going to be 
increased.
    But the other thing that I hope you just heard me say is 
that this is to start the conversation about something that is 
a chronic, persistent problem. We have to come up with better, 
more efficient ways so that we don't leave people in situations 
where they become--
    Chairwoman Waters. Thank you.
    My time has expired. We can have a discussion all we want 
about rate increases but if they are not affordable, if they 
are seniors, if they are on disability, the discussion does 
them no good, and I am very concerned about that.
    And, with that, the gentleman from North Carolina, Ranking 
Member McHenry, is recognized for 5 minutes.
    Mr. McHenry. Thank you, Secretary Carson. During your time 
at HUD, you have been willing to take on a few tough fights, 
and I want to speak to the example of the suit that, under your 
direction and leadership, HUD filed against the New York City 
Housing Authority, which is the largest housing authority in 
America. It is the largest housing authority not just in the 
United States but in North America. And your lawsuit was about 
the deplorable conditions of its housing units, and your 
accusation and HUD's accusation was that the New York Housing 
Authority was in substantial default under the 1937 Housing 
Act, allowing for dangerously high levels of lead paint, 
unsanitary conditions, rats, mice, nonfunctioning heat in 
winter, and widespread recurring mold.
    In short, things were so bad in so many New York City 
Housing Authority units that at least 19 children were found to 
have elevated blood lead levels. Some residents were sleeping 
with their gas ovens on for heat, and 83 percent of inspected 
units contained a condition that could pose a health hazard to 
a tenant.
    This was covered up for years, so bad that the U.S. 
Attorney for the Southern District of New York said that their 
failure to provide decent, safe, and sanitary housing is simply 
unacceptable and illegal. You sued the New York City Housing 
Authority, and then, in January of this year, they voluntarily 
entered into a consent decree with HUD. So can you walk us 
through that and the steps that are being taken going forward 
so that we can keep children and those who are in these units 
safe and healthy?
    Secretary Carson. Yes. We are very concerned, particularly 
about the lead situation and the number of children who have 
been affected. You know, lead poisoning for a child is 
devastating, not only acutely, but it has a lifelong impact. 
And not only does it decrease their abilities, but it is very 
costly to society in terms of their potential.
    But in the case of the New York City Housing Authority 
(NYCHA), they had been prevaricating about what they were doing 
during their inspections, covering it up completely, and in 
addition to that, allowing mold to fester which was causing a 
lot of problems with asthma, which has a very substantial 
medical cost to it as well, not having up protective barriers 
where they needed to be, trip hazards, elevators that weren't 
working. I mean, it was a total disaster.
    And in situations like that in the past, HUD has frequently 
taken places into receivership. I have not taken any place into 
receivership since I have been here--because in looking over 
the history of that, it has not turned out particularly well in 
all cases--and decided that we really would work with the City.
    The mayor and myself, who come from very different 
political places, decided we would put aside the political 
differences and concentrate on the people and what could be 
done in order to help the people of NYCHA. We decided to put a 
monitor, a Federal monitor who has much experience, on that 
case. We put in measurements that have to be met and times when 
they have to be met, and we are proceeding along that line. A 
CEO is in the process of being selected now. And we are going 
to keep a very close eye on it, and we are going to hold them 
to the metrics that have been put in place because, again, no 
one deserves to live in that setting.
    Mr. McHenry. Well, thank you for speaking to the humanity 
involved, not the physical structures but actually speaking to 
the people who inhabit these places, who deserve to live in a 
healthy, safe place.
    I want to raise Opportunity Zones, and I know other people 
will have questions about Opportunity Zones and your leadership 
under the White House Opportunity Revitalization Council, but 
my time is cut short. I thank you for your testimony. Thanks 
for your leadership and your service to our country.
    I yield back.
    Secretary Carson. Thank you.
    Chairwoman Waters. The gentlewoman from New York, Mrs. 
Maloney, who is also the Chair of our Subcommittee on Investor 
Protection, Entrepreneurship, and Capital Markets, is 
recognized for 5 minutes.
    Mrs. Maloney. Thank you, Madam Chairwoman.
    Mr. Secretary, the ``D'' in HUD does not stand for 
``deportation.'' I am afraid that a recent proposal of yours 
will bring nothing but despair to thousands of American 
families by throwing children out of their homes. Simply put, 
we cannot create affordable housing for Americans by throwing 
other Americans out into the street with no place to go.
    I am very proud to represent Queensbridge Houses, which is 
the largest public housing complex in the entire country, along 
with many other public housing complexes. So I have been 
working with public housing tenants since 1981, standing up for 
tenants' rights, fighting against spending cuts, and exposing 
and ending corrupt mob contracts.
    But your plan to create vacancies by making 55,000 American 
children homeless is among the most damaging proposals I have 
ever seen in public policy, and, quite frankly, I find it 
despicable. You know that the current laws already prohibit 
Federal housing programs from subsidizing undocumented 
immigrants. Individuals who are not eligible for housing 
assistance do not receive subsidies.
    By evicting mixed status households, you will rip apart 
families and will be throwing children onto the street. And 
where will the 55,000 children go? Where will they live? What 
agency will care for their health and education? Is your plan 
to have ICE put 55,000 more children in cages on the border? 
Really. Not in my district and not on my watch. This is a 
horrible plan.
    New York City now spends more than $600 million per year to 
support 8,200 children in foster care and $4.5 billion more 
every year to tackle homelessness. Have you considered how you 
would support the newly homeless families and children? Will 
they be going to foster care? What is your plan?
    Secretary Carson. First of all, thank you for the work that 
you have done on behalf of the people, and I appreciated our 
visit in New York.
    Mrs. Maloney. Thank you.
    Secretary Carson. As far as what we are doing with housing, 
the law that has been provided through Congress states very 
specifically that the Secretary of HUD may not provide housing 
assistance to people who are here illegally. It also states 
specifically that the Secretary has the duty to end assistance 
if he finds that someone is violating that, so we are following 
the law. I would also point out to you--
    Mrs. Maloney. But may I respond? By law, we already--I 
agree with you, you don't provide subsidies to people who are 
here illegally, but these children were born here in America, 
and even if their families are illegal--it is a mixed family in 
terms of legality--the children are legal. So you could have a 
situation where the parents are deported and they leave the 
children, who are American citizens, here. Who is going to take 
care of these children? Do you have a plan to take care of 
these 55,000 children, which is HUD's number that came forward 
with that they project could be hurt by this plan? Do you have 
a plan for how to take care of these children, yes or no?
    Secretary Carson. A couple of things here. First of all, 
there are hundreds of thousands of children as well as elderly 
and disabled people on the waiting list who are legal American 
citizens.
    Mrs. Maloney. But Mr. Secretary, these children are legal 
American citizens. They were born in America. They are legal 
citizens.
    Secretary Carson. As I was saying, there are hundreds of 
thousands, if not millions, who are waiting on the list. Do you 
suggest that we prioritize people who are illegal--
    Mrs. Maloney. You are going to pick one American citizen 
over another? Again, these children are American citizens. They 
are legal. And what is your plan to take care of them?
    Secretary Carson. Well, if you read the rule carefully, you 
will see that it provides a 6-month deferral on request if they 
have not found another place to live, and that can be renewed 2 
times for a total of 18 months, which is plenty of time for 
Congress to engage in comprehensive immigration reform so that 
this becomes a moot point, as does the DACA situation and a 
hundred other things.
    Mrs. Maloney. How in the world can you put forward a plan 
that could lead to making 55,000 children homeless?
    Chairwoman Waters. The gentlelady's time has expired.
    The gentlewoman from Missouri, Mrs. Wagner, is recognized 
for 5 minutes.
    Mrs. Wagner. Thank you, Madam Chairwoman.
    And I thank Secretary Carson for his testimony today and 
for his service.
    Would you like a minute, sir, any more time to respond?
    Secretary Carson. Yes. Thank you very much. The fact of the 
matter is Congress has a responsibility for making the laws 
that govern this, and they have the ability to change that. And 
if, in fact, you want to explain to the American citizens who 
have been on the wait list for several years in your district 
in New York why we should continue to support families who are 
not here legally, I would be happy to join you in helping to 
explain that to them.
    Mrs. Wagner. Thank you. And I am glad you could finish your 
answer.
    Congressman Al Green and I have written and worked on 
legislation that addresses major challenges facing the disaster 
relief funding process at HUD. According to numerous IG reports 
and a hearing that the Financial Services Committee's Oversight 
and Investigations Subcommittee held in March, major issues 
have been identified with the Community Development Block Grant 
Disaster Recovery Program.
    Some of the difficulties identified are the potential 
duplication of benefits, slow disbursement of disaster-related 
funding, and delays in funding for low- and moderate-income 
citizens. While HUD has become a primary provider of disaster 
recovery, this program is not codified in statute. HUD uses 
more than 60 Federal Register Notices to issue clarifying 
guidance, waivers, and alternative requirements to oversee at 
least 113 active disaster recovery grants, which totaled more 
than $47 billion as of last year.
    Codifying the CDBG-DR program would provide a framework for 
future disasters, reduce the overreliance on Federal Register 
Notices for each disaster, and speed delivery of disaster 
assistance to grantees and disaster victims. Codification 
provides proper controls that protect against waste, fraud, and 
abuse.
    Mr. Secretary, are you aware of these challenges within the 
CDBG-DR program, and how are you making sure these funds are 
directed toward the Americans who need it the most?
    Secretary Carson. Thank you very much for that question and 
for the visits that we have had to discuss this and other 
matters.
    I actually very much agree with the whole concept of 
appropriate codification. You and Congressman Green have been 
working on this, I know, with some others, and the big 
advantage, of course, is you start out on second base instead 
of starting out from home.
    And there are a lot of things that are done consistently 
all the time, and you can get those things codified and done 
quickly so that you can decrease the amount of time. I am in 
agreement with that, and we are very happy to work with you. We 
are already making some progress in that area, and I think we 
can do this, because one of the things that has concerned me is 
the amount of time it takes to get grants out.
    Mrs. Wagner. Right.
    Secretary Carson. And I have asked every office at HUD to 
look at their own internal procedures and see what they can do 
to speed it up. If you have 10 offices and 9 of them get things 
done quickly and one of them takes 6 months, the whole thing 
takes 6 months.
    Mrs. Wagner. There has to be coordination between HUD, SBA, 
FEMA, and State agencies all talking to each other to make sure 
there are not procurement issues. I look forward to working and 
continuing my work with Congressman Green to bring this to the 
Floor. So I thank you for your support and for your commitment 
to this.
    Quickly moving on, the world's largest Catholic healthcare 
system, Ascension, is headquartered in the St. Louis region. 
Ascension is implementing a comprehensive organizational 
response to trafficking survivors at its hospitals. 
Unfortunately, Ascension can only establish these programs 
where emergency housing is available. I understand that the 
continuum of care fiscal year 2018 competition focus included 
$50 million for housing services for domestic violence and 
trafficking survivors.
    Will HUD extend this program and ensure that projects, 
including housing for trafficking survivors, are--or are there 
more permanent ways that HUD can address transitional housing 
needs for trafficking survivors, sir?
    Secretary Carson. Well, trafficking is obviously 
horrendous, and there is a lot more of it going on these days, 
and we definitely need to take care of that, and that was a 
very good program. It turns out that you all have funded that 
for the 2019 season, so yes, it will be continued.
    Mrs. Wagner. Wonderful. I am glad to hear that.
    My time has expired. I yield back.
    Chairwoman Waters. Thank you very much.
    The gentlewoman from New York, Ms. Velazquez, is recognized 
for 5 minutes.
    Ms. Velazquez. Thank you, Madam Chairwoman.
    Secretary Carson, in defending HUD's recently proposed 
immigration rule, you released the following statement: ``There 
is an affordable housing crisis in this country, and we need to 
make certain our scarce public resources help those who are 
legally entitled to it.''
    Mr. Secretary, do you know how many people are on the 
waiting list for public housing and Section 8 vouchers?
    Secretary Carson. In your district, you mean?
    Ms. Velazquez. No, no, no. Nationwide.
    Secretary Carson. There are hundreds of thousands.
    Ms. Velazquez. No. There are 4.4 million people, by the 
way. So do you know how many units would open up as a result of 
the proposed rule, how many units with that proposed rule?
    Secretary Carson. Probably at least 32,000.
    Ms. Velazquez. Twenty-five to 35 units--so you are going to 
put children on the streets to open up 25,000 to 35,000 units, 
and these are American children. Where are they going to go? 
They will go into the shelter system. They will become homeless 
children. Those are American children.
    So the question is not, where are they going to go? The 
question to you, sir, is, why, if you recognize that there is a 
housing crisis in our nation, that there are 4.4 million people 
on a waiting list, why did you request $9.6 billion less for 
HUD's budget for Fiscal Year 2020, including zeroing out the 
capital fund and requesting $350 million less for the Section 8 
program? Do you understand why this sounds like you are talking 
from both sides of your mouth?
    Your regional director in New York, Ms. Lynne Patton, has 
been spending nights living in public housing, but apparently, 
she forgot to talk to you because this budget request doesn't 
reconcile what she is seeing on the ground. And I found that 
people come here and talk about this situation of public 
housing in New York, and you have not been here when we have 
been advocating for increasing the capital fund so that we 
could make repairs and we can address the issue of mold.
    In fact, when you went to the hearings, confirmation 
hearings on the Senate side, you said that as a doctor, you 
will want to take care of the children in public housing, the 
health of children in public housing. Sir, this budget is 
shameful. It is immoral. It fails American citizens just for 
the sake of scoring political points.
    So did you have any conversations about this proposed rule 
with the staff of the White House, including Senior Advisor 
Stephen Miller or Acting White House Chief of Staff Mick 
Mulvaney? Did you?
    Secretary Carson. We have conversations all the time about 
many of our policies.
    Ms. Velazquez. And did you consult with any national 
affordable housing organizations, tenant rights, or immigration 
groups?
    Secretary Carson. We have such conversations with such 
groups all the time.
    Ms. Velazquez. Did you have conversations with the largest 
public housing authority in the nation, New York. Did you?
    Secretary Carson. I think what is important is, what are we 
going to do about the problem? That itself would make a lot 
more sense.
    Ms. Velazquez. Reclaiming my time, don't sit there, sir, 
and talk about the national conversation. We need to have a 
national conversation about homelessness in our nation, about 
the disrepair of public housing in our nation. Do you know what 
it takes? It takes money. It takes the budget. You have created 
this crisis by the disinvestment that has taken place in public 
housing in our nation.
    Secretary Carson. We have a very substantial affordable 
housing crisis, and there are two ways to approach it: Continue 
to throw money at it, which has been done for a long time 
without solving the problem; or ask yourself, why do you have 
that problem of escalating crisis? I can say more about that.
    Ms. Velazquez. I yield back the balance of my time.
    Chairwoman Waters. The gentleman from Florida, Mr. Posey, 
is recognized for 5 minutes.
    Mr. Posey. Thank you, Madam Chairwoman.
    Mr. Secretary, they continue to ask the questions and not 
allow you time to answer them. That is pretty selfish, pretty 
bad behavior. So, if you want any time to answer, then you just 
give me a thumbs up, and I will yield time for that.
    Secretary Carson. Thank you. I appreciate that. It does 
seem a little silly to have a hearing where you are asked a lot 
of questions, and you can't answer them. It seems more like a 
platform for--
    Ms. Velazquez. Would the gentleman yield?
    Mr. Posey. No.
    Ms. Velazquez. You call me selfish for fighting for the 
children in America? Shame on you.
    Mr. Posey. Madam Chairwoman, order, please.
    Chairwoman Waters. Order.
    Mr. Posey. Dr. Carson has my time.
    Secretary Carson. In terms of the affordable housing 
crisis, we have to ask ourselves, why is there an affordable 
housing crisis in a country like ours? There are so many 
regulatory issues and zoning restrictions that add to the cost.
    For a new construction single-family home now, we are 
talking 25 to 27 percent. For multifamily construction, we are 
talking 32.1 percent, up to 42 percent in a quarter of cases. 
Unless we begin to tackle the things that are driving these 
prices, we are just chasing our tails by just saying we have to 
throw more money at it.
    We have to analyze these things carefully. We have to use 
our brains. We have to think logically rather than just 
emotionally if we are going to solve these problems, and they 
can be solved if we work together, rather than making 
everything into a political platform and trying to score 
points.
    Mr. Posey. Well stated, Mr. Secretary, and I am saddened to 
see you come here only to be bullied and berated for not 
breaking the law, actually. And I don't know if they were 
suggesting that you should separate these children from their 
families as a way to comply. I don't know if that is their 
suggestion, but it is off-the-wall thinking, and I respect you 
for following the law.
    All of us here should be impressed that HUD's 2020 budget 
request continues the Federal goal to prevent and end 
homelessness by seeking nearly $2.6 billion to support 
thousands of local housing and service programs assisting the 
homeless.
    And while a lot of the people up here do a lot of talking, 
you have actually been doing a lot of work, and you have 
actually been accomplishing things. And I want you to know that 
a lot of people do recognize that and appreciate it. Your list 
of accomplishments is extraordinary, just like the track record 
of your personal life, and we are pleased that you have chosen 
to dedicate your clearly superior intellect and desire to help 
other people in a position that you are. I just can't imagine 
that you are willing to put yourself and your family through 
this, but we are so grateful that you are willing to do that.
    Secretary Carson. Thank you.
    Mr. Posey. Mr. Secretary, I have been a vocal supporter of 
easing restrictions on FHA loans for condominiums, and I have 
written you a letter before with Mr. Cleaver from the other 
side. Could you give us an update on where that is?
    Secretary Carson. Yes. The condominium issue is a sticky 
issue. It is very complex, fraught with risk, and we have been 
doing a very in-depth analysis working with it, have submitted 
new rules for it that have gone over to OMB, and we expect to 
have the final rules on condominiums out by this fall.
    Mr. Posey. That is great. Thank you, sir.
    Also, we recently discussed your recent proposed rules 
issued under Section 3 of the HUD Act of 1968. I just wonder if 
you could share with us the important improvements you have 
made?
    Secretary Carson. Yes. Section 3 is an extremely important 
part of the Housing Act because it requires that if you are 
getting HUD money, that you have to hire, train, or give 
contracts to the low-income people in the area. It has been 
largely ignored because it is so encumbered with regulatory 
requirements that nobody wants to use it. So we have done an 
in-depth analysis of it, removed a lot of those encumbrances, 
added incentives, and the new rules for Section 3 will be 
coming out this summer.
    Mr. Posey. Excellent. Well, again, my time is about to 
expire, Mr. Secretary, but again, I want to thank you for your 
service and express that I am embarrassed by the way you are 
treated in this committee.
    Secretary Carson. Thank you.
    Mr. Posey. I yield back.
    Chairwoman Waters. Thank you very much.
    Let me remind you, Members will refrain from impugning the 
personal motives of other Members.
    The gentleman from California, Mr. Sherman, is recognized 
for 5 minutes.
    Mr. Sherman. Madam Chairwoman, the Member controls their 5 
minutes. The witness controls the 5-minute opening statement, 
and many of our witnesses have an outstanding bully pulpit 
outside this room. To then turn and say to Members that they 
don't control even their 5 minutes is a denigration of our role 
as members of this committee.
    As to affordable housing, the witness does point out that 
there are barriers to the creation of more rental units, and we 
need many, many hundreds of thousands built. We need to keep 
interest rates low. Zoning in most cities makes it impossible 
to build rental housing in neighborhoods where people are not 
poor.
    And we can say we don't discriminate against poor people. 
We just discriminate against people who don't want to live 6 
families to the acre or 4 families to the acre. You cannot 
build affordable rental housing 6 families to the acre.
    And we also have the fiscalization of land use planning 
where cities are financed often based on the money they can get 
from commercial development, and they fight in my State over 
who can prevent housing from being built on certain empty 
acreage. If they can only get an auto dealer there, they get 
the sales tax. So the fiscalization of land use planning also 
keeps cities from allowing rental housing to be built.
    I know Mrs. Maloney is not here, but, Mr. Secretary, I want 
to thank you for being perhaps the only person in your 
Administration to support comprehensive immigration reform, 
reform which would have provided and which would provide legal 
status for the families that Mrs. Maloney from New York is 
concerned about.
    As to somewhat more mundane matters, the FHA has specific 
mortgage requirements, servicing requirements--I am talking 
about mortgage servicing--some of which are antiquated. In your 
ongoing efforts to make the FHA program more attractive to 
lenders, what is HUD doing do better align FHA servicing 
requirements to those of GSEs?
    Secretary Carson. Well, one of the things that we are doing 
is working with the Justice Department on the False Claims Act, 
which has driven away quite a few of the lenders who are 
concerned about nonmaterial mistakes and the consequences for 
them, and that will open up a lot more borrowing options for 
people.
    Mr. Sherman. Do you see a need for legislation for us to 
somewhat correct the False Claims Act, or can this be done 
administratively?
    Secretary Carson. We are going to try to do it at the 
administrative level, but I appreciate the implication that you 
would help us if legislation is needed.
    Mr. Sherman. Okay. The Rental Assistance Demonstration 
program (RAD) focuses on public housing authorities. The 
program allows public housing authorities to convert housing 
properties at risk of obsolescence into project-based vouchers 
under Section 8. Are you familiar with the RAD program, and do 
you think it is effective?
    Secretary Carson. I am very familiar with it. It is a 
spectacular program. Already, we have been able to convert well 
over 100,000 units and contribute $7 billion towards capital 
needs. It is one of the most spectacular programs, and one of 
the things that would help us tremendously legislatively is to 
lift the cap on RAD. Right now, it is at 455,000 units. There 
are so many places across the country that are requesting it, 
and there is absolutely no reason that it shouldn't be lifted. 
It has already been demonstrated to be extremely effective.
    Mr. Sherman. Thank you, and we should look at that.
    Now, the FHA is concerned about people having down 
payments. Some get assistance from their families. Some get 
assistance from government entities. And the differentiation in 
default rates is, like, 0.2 percent between whether you get aid 
from the government, a government entity, or a family member, 
and yet you are being pretty restrictive on the government 
entity aid. And this particularly affects some Indian Tribes, 
who are being told that they can only make loans or provide 
rental assistance in their own geographic area, which can be a 
small reservation. Can you look at this?
    Secretary Carson. Yes. We are in the process of looking at 
that. As you know, there has been a 90-day delay on that, and 
we are, in fact, looking at it, but it is also in litigation, 
so I am not really free to talk too much about it.
    Chairwoman Waters. Thank you very much.
    The gentleman from Missouri, Mr. Luetkemeyer, is recognized 
for 5 minutes.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman.
    I am over here, Dr. Carson. Thank you, Dr. Carson.
    Dr. Carson, one of the areas this committee has examined at 
length in this Congress is a lack of affordable housing in this 
country. A main cause for the shortage of affordable housing is 
the regulatory burdens that increase the cost of the mortgage, 
which you described a minute ago, actually for some types of 
housing, 32 to 40 percent.
    One pending rule HUD should be focused on that affects the 
affordability of housing is the impending Current Expected 
Credit Loss accounting standard, or CECL. This accounting 
standard requires banks to incur the full loss of a loan at the 
moment it is originated. I have heard concerns about CECL from 
numerous industries including regional banks, credit unions, 
REALTORS, and home builders.
    Many of these concerns stem around housing affordability. 
According to the National Association of Home Builders, who 
have testified in this committee twice over the last 4 or 5 
months, an increase in the cost of a house by $1,000 prices 
100,000 people out of a home.
    My question to you this morning is, have you looked at the 
effects of CECL and what they could have on the ability of 
someone to afford a home?
    Secretary Carson. Yes, we have. It is difficult when you 
are trying to project out into the future risks of that nature, 
and we are in the process of studying that very carefully. We 
don't want to make a mistake on that.
    Mr. Luetkemeyer. Are you coming up with a study on the 
effect of the individuals, the number of folks, the effect on, 
you know, that you are having to reserve and what kind of 
reaction you have to come up with to increase those reserves?
    Secretary Carson. All of those parameters are being looked 
at.
    Mr. Luetkemeyer. So, if you have to increase your reserves, 
what is the source of income for you?
    Secretary Carson. Excuse me?
    Mr. Luetkemeyer. I said, if you have to increase your 
reserves, what is the source of income by which you would be 
able to do that?
    Secretary Carson. Where would the money come from to be 
able to do that?
    Mr. Luetkemeyer. Right.
    Secretary Carson. I am not sure.
    Mr. Luetkemeyer. You would have to increase your guarantee 
fees, perhaps?
    Secretary Carson. That is one suggestion.
    Mr. Luetkemeyer. Okay. If that happens, that increases the 
cost of the loan, which home builders say keeps people from 
having access to the loan, right?
    Secretary Carson. Yes. You have to look at all the possible 
sources and model it out to see what the long-term effect is.
    Mr. Luetkemeyer. And this is going to affect the GSEs as 
well. Have you been looking at that effect? Have you talked to 
Freddie Mac and Fannie Mae to see how this is going to impact 
them in any sort of coordination with all of these other 
government agencies that it may or may not impact?
    Secretary Carson. Well, we do talk about that. I will be at 
an FHA meeting this afternoon, actually. I am sure that topic 
will come up.
    Mr. Luetkemeyer. Interesting. So are they monitoring this? 
Are you aware of it? Are they--
    Secretary Carson. I'm sorry?
    Mr. Luetkemeyer. Are they monitoring it? Are you aware if 
they are monitoring this or coming up with studies to look at 
the costs that they may incur, what they may do to react to 
this?
    Secretary Carson. I am not sure what you mean.
    Mr. Luetkemeyer. Okay. Well, in your communications with 
them, are they looking at how to increase the reserves? Are 
they going to borrow money from the Treasury? Are they going to 
increase the guarantee fees? Have you discussed that at all 
with them, or is that part of the meeting this afternoon?
    Secretary Carson. They are looking at, how do they backstop 
themselves. Right now, in conservatorship, they don't have to 
worry about that. If they come out of conservatorship, that 
becomes a very different question about where that money comes 
from, and there are multiple discussions about where it would 
come from.
    Mr. Luetkemeyer. Okay. One of the questions that you were 
talking about or answering a while ago was with regards to the 
cost drivers for affordable housing, and I guess my question to 
you is, how much authority do you have at HUD, if any, with the 
ability to waive certain rules and regulations or change 
certain rules and regulations or suspend certain rules and 
regulations? Are there certain rules and regulations that you 
have the ability to do that with, or are your hands pretty well 
tied, and Congress has to be the one to change the way that 
this all works?
    Secretary Carson. The vast majority of the regulations are 
done at a local level, so we can't change those. What we can do 
is try to incentivize people at the local level to begin to 
look at some of these rules and to address them, and they get 
preference points when they do that, and a lot of people are 
actually starting to realize that and do that.
    A lot of these regulations have been on the books for 10, 
20, 50, 100 years. They have nothing to do with what is going 
on now. The density requirements frequently don't take into 
account some of the new modern building techniques.
    And, as far as the whole affordability issue is concerned, 
in addition to financial issues, we have to look at modern 
technologies that have come to the fore. And I can continue 
that at some point.
    Mr. Luetkemeyer. My time has expired. Thank you very much 
for your service, sir.
    Chairwoman Waters. The gentleman from Missouri, Mr. Clay, 
who is also the Chair of our Subcommittee on Housing, Community 
Development, and Insurance, is recognized for 5 minutes.
    Mr. Clay. Thank you, Madam Chairwoman.
    And, Mr. Secretary, let's discuss the Wellston, Missouri, 
Housing Authority, which HUD has had in receivership for the 
last 22 years, and as you are aware, there is a planned 
demolition of a number of units, which will displace tenants, 
uproot lives, and cause utter confusion in those lives. 
Children will be forced to change schools, and some parents 
will have drastic changes to their life and work schedules.
    As you know, we are looking at several options, which we 
have discussed, including the grand families concept and 
Section 202 housing. Could you please walk us through a 
displacement such as this and tell us, what does HUD do to 
serve the affordable housing needs of these residents and 
ensure that they have access to safe, affordable, and modern 
housing?
    Secretary Carson. Thank you for that question. And thank 
you for the times that we have had a chance to discuss this and 
to visit in your district, where the people seem to like you 
very much.
    Certainly, we are very concerned about any time people have 
to be displaced, which is why we have Tenant Protection 
Vouchers. Not only do we provide those, but we provide 
relocation services to help those individuals to be able to 
adjust. And in some cases, they end up finding places that they 
like considerably better, and they don't even want to come back 
after the problem has been rectified. But we do want to give 
them those choices.
    We also have been working very vigorously with the Housing 
Choice Vouchers to make them more palatable because there are 
many places where landlords won't accept them. And we have done 
some studies to find out why they won't accept them. Some of 
them are really quite interesting.
    For instance, in San Diego, there was great resistance. And 
then the City guaranteed all the landlords that they would 
repair any damage that was done, because the landlords were 
afraid that these Section 8 people would destroy their 
property. It cost the city almost nothing because people were 
not destroying their property. They weren't going to destroy 
their property. They have been waiting for a long time to get 
this voucher; they are not going to do that. But sometimes you 
have to fight the perception, and that was done. But there are 
lots of other things that impact that.
    But we look very carefully at how we can make sure that 
those people are taken care of who are displaced.
    Mr. Clay. And speaking of that, St. Louis County government 
is considering an ordinance that will prohibit source-of-income 
discrimination as far as housing vouchers are concerned, which 
I think will address it at the local level.
    Can you give us some examples of public-private 
partnerships that could work for a community like Wellston, or 
have you given that any thought?
    Secretary Carson. I think there are many of them around the 
country. Purpose Built Communities like East Lake outside of 
Atlanta, which, as some people here probably know, was one of 
the worst places in terms of crime, in terms of poverty, with 
schools performing at the lowest level in the State. And 
through the public-private partnerships, building of mixed-
income housing, bringing in grocery stores, places for 
employment, they were able to convert that neighborhood 
completely.
    I went to one of the charter schools that they put in, a 
high school. I was met by five students playing a harp. The 
things that they had available were absolutely outstanding. 
Those schools achieve at the highest levels in the State now, 
better than many of the private schools.
    So, can it be done? Absolutely. It needs to be done in a 
holistic manner. Do we have the ability to do that in this 
country? We absolutely do. We will never get it done if we 
fight each other, but if we recognize the problem and begin to 
work with each other, everybody has good ideas.
    Chairwoman Waters. Will the gentleman yield, Mr. Clay? Do I 
hear a commitment to Wellston?
    Mr. Clay. We were getting to that.
    Chairwoman Waters. The gentleman is committing to helping 
to do--
    Mr. Clay. I will ask the question.
    Chairwoman Waters. Thank you.
    Mr. Clay. Go right ahead.
    Secretary Carson. Of course, we are going to be very 
interested in Wellston, and, of course, we are going to be 
interested in helping there.
    Mr. Clay. And you are committed, HUD is committed to 
working with us in that community to make sure that--
    Secretary Carson. And we want to continue to work with you 
on that, absolutely.
    Mr. Clay. I appreciate it.
    My time has expired, and I yield back, Madam Chairwoman. 
Thank you.
    Chairwoman Waters. Thank you very much.
    The gentleman from Wisconsin, Mr. Duffy, is recognized for 
5 minutes.
    Mr. Duffy. Thank you, Madam Chairwoman.
    Welcome, Dr. Carson. I imagine, as--I almost said a former 
doctor, but as a doctor, you probably prefer to deal with the 
root causes of someone's health problem as opposed to just the 
symptom of the problem.
    Secretary Carson. Absolutely.
    Mr. Duffy. And so you are somewhat getting bludgeoned by my 
colleagues about your rule on noncitizens and your rule that 
actually follows the law that was passed by Congress, but I 
would note that it seems like, in the last several months, we 
have 50,000 illegals coming across our border every month. And 
when there is an open border and people continue to flood into 
our country, you are going to have more problems of illegal 
parents and maybe U.S. citizen children.
    And so maybe instead of bludgeoning you as the Secretary of 
HUD, maybe the Congress should actually deal with securing the 
southern border, recognizing it is a crisis, and take 
responsibility ourselves, which I would encourage my friends 
across the aisle to put up the mirror and say: Maybe we have to 
deal with this problem; maybe it is not Dr. Carson's fault.
    Secretary Carson. That makes far too much sense.
    Mr. Duffy. I would agree with that.
    So, maybe just in regard to your rule, you are basically 
saying, ``I am going to follow the law, and I am going to let 
U.S. citizens take a priority in housing that comes from HUD.'' 
Is that right?
    Secretary Carson. That is correct. Although, I am open. I 
am not a hard nose. So, if someone can tell me how to follow 
the law and still take care of their issue, I am all ears. I am 
ready to hear it.
    Mr. Duffy. So, in the way you structured this rule to 
actually follow the law that was passed by Congress, did you 
give some extra time for the Congress to act and maybe change 
the law?
    Secretary Carson. Yes. They can have a 6-month deferral, 
and they can renew that twice. So that is 18 months, which 
should be plenty of time if Congress was actually interested in 
solving the problem.
    Mr. Duffy. And, again, I just want to put a period on the 
point that this problem is getting worse, and this is not 
compassion. I was just at the border. And to look at what is 
happening to families and the journey and the sexual assaults 
and the indentured servitude of people who come up through 
cartels and have to work for the cartels once they get here, 
this is not compassion. What you experienced is not compassion. 
But I applaud you because I believe, as an American citizen, we 
should put Americans first.
    Secretary Carson. Absolutely. And if we are not going to be 
a nation of laws, what happens if we say, ``We can ignore this 
one, we don't like this one, but this one we will do.'' Where 
does that lead in the long run? To nothing but chaos.
    Mr. Duffy. To chaos. I want to pivot, because you had 
mentioned maybe one of the pathways forward is to look at the 
cost of housing. Why has it become so unaffordable? Again, we 
are looking at the symptom of increased cost.
    Why don't we look at the root cause? And you mentioned I 
think regulation and zoning that can drive up the cost of 
housing. Are there any examples where you have local 
governments that have actually tried to address their zoning 
rules and their regulations and maybe allow for more 
development of multifamily structures that can drive down 
prices but also improve the stock?
    Secretary Carson. Yes, there are several cities who have 
engaged in that. They have come to recognize one very important 
thing: A lot of these barriers are caused by ``NIMBYism,'' 
``not in my back yard-ism.'' And I actually understand that, 
because the most valuable thing that most people have is their 
home.
    And they have in their mind the model of the 1960s and 
1970s, where the government would come in and build these 
massive structures with no forethought, no holistic planning, 
leave, and they would deteriorate, and nobody wants that around 
them. But, of course, we have to get the message out that the 
government doesn't do that anymore. Now we do public-private 
partnerships. We do things that match the community because we 
want nurses and policemen and firemen and teachers to be able 
to live in the same community where they work. That doesn't 
decrease the value; I think that increases the value of the 
community.
    Mr. Duffy. But with a little restructuring on zoning and 
rules, we can actually lower the cost of housing, right?
    Secretary Carson. Absolutely.
    Mr. Duffy. I wanted to get to Puerto Rico. My time is 
almost up, but I know that you have allowed for what, $1.5 
billion, $1.8 billion in disaster relief to go to Puerto Rico. 
You have some strings attached, which I agree with. And any 
objections from the Puerto Ricans thus far in how you 
structured the money?
    Secretary Carson. None whatsoever. The Governor and I have 
been working together. And they have $1.5 billion immediately 
available to them, of which they have used $250,000.
    Mr. Duffy. $250 million or $250,000?
    Secretary Carson. $250,000.
    Mr. Duffy. I yield back.
    Chairwoman Waters. The gentleman from Georgia, Mr. Scott, 
is recognized for 5 minutes.
    Mr. Scott. Thank you very much, Madam Chairwoman.
    Dr. Carson, over here. It's good to have you back again.
    Secretary Carson. Thank you.
    Mr. Scott. Dr. Carson, are you familiar with own-to-option 
mortgage programs?
    Secretary Carson. In general, yes.
    Mr. Scott. In general. Well, the National Urban Institute 
has recognized this as an excellent way to move people into 
home ownership. Have you reviewed this? How receptive are you 
to it?
    Secretary Carson. I am very receptive to the idea, 
recognizing that home ownership is the principal mechanism of 
wealth accumulation in this country. The average renter has a 
net worth of $5,000; the average homeowner $200,000. That is a 
fortyfold increase. So we are looking at multiple ways, 
including renter-to-ownership models, to increase home 
ownership, particularly amongst some of the demographics that 
have fallen behind.
    Mr. Scott. That is very good, and I encourage you to 
continue that as well.
    Now, let me go to a project you had mentioned some time ago 
as being one of your real projects that you can take some 
authorship in. It is called EnVision Centers. Could you tell us 
about that? I have spoken with some of the public housing 
authorities in my district down in Georgia, like East Point 
Housing Authority and many others, and they seem to be very 
excited about this. Tell us a little more about that, will you?
    Secretary Carson. Yes. Well, the idea comes from the Bible. 
Proverbs 29.
    Mr. Scott. Hold on. It comes from the Bible?
    Secretary Carson. From the Bible.
    Mr. Scott. Very good.
    Secretary Carson. Proverbs 29:18 says, ``Without a vision, 
the people perish.'' So we said, ``We will call these Vision 
Centers.''
    But then we thought everybody would think they were getting 
glasses, so we called them EnVision Centers.
    But it is a place where we can bring together all of the 
various services that are available to move people towards 
self-sufficiency. So, instead of them going to 17 different 
places, they can get all of these services under one roof. We 
had the first demonstration of 17 cities, and 13 of them have 
opened already. Some of them are doing extremely well.
    And, this is just a model, which I think is going to 
explode very soon, and we are going to have a lot of these.
    Mr. Scott. Let me ask you this now: You mentioned when you 
made that announcement last April, I believe, you did say, as 
you just mentioned, 13 centers opened, but, to our available 
knowledge that has come to us, only 3 have opened, not 13, so 
there is some discrepancy there. Are you aware of that?
    Secretary Carson. There may be. But there was actually an 
article in OAN this week that details the 13 that are open.
    Mr. Scott. Okay. That is good. EnVision Centers. I hope you 
continue that. Folks in Georgia in my district are very excited 
about it, and so I look forward to working with you.
    Now, tell me and give me a very good update and let me know 
because the last time you were here, you and I had a very 
spirited conversation about your desire--or it wasn't your 
desire. It was, as you said in your statement, somebody said 
that we ought to zero out the Community Development Block Grant 
Program.
    After you and I talked, tell me, are we secure with that 
program, or do you and I have to go to battle once more on 
that?
    Secretary Carson. I don't think we ever have to go to 
battle, regardless of whether we agree or not.
    Mr. Scott. Well, let me tell you, if you all move 1 inch to 
zero out the most effective program that cities and States and 
counties use to lift themselves up and be the cities and towns 
that they need, yes, we will go to battle. I am asking you, 
will we have to go to battle? Are you all still planning to 
zero out the budget for the CDBG program, yes or no?
    Secretary Carson. Let me just say I don't think we ever 
need to go to battle, regardless of anything.
    Having said that, as I have said before, the CDBG program 
has been helpful in many cases.
    Mr. Scott. No. I know my time is short, but have you moved 
away from zeroing out the budget, yes or no?
    Secretary Carson. It is not a yes-or-no question.
    Mr. Scott. Yes, it is.
    Secretary Carson. You just want to make it into a battle. 
It doesn't need to be a battle.
    Mr. Scott. No, I want a yes-or-no answer. Are you going to 
do it, or are you not? Apparently, you all still have that on 
the table.
    Chairwoman Waters. Mr. Scott, your question was not 
answered.
    Mr. Barr, the gentleman from Kentucky, is recognized for 5 
minutes.
    Mr. Barr. Thank you, Madam Chairwoman.
    And, Mr. Secretary, thanks for being back in front of our 
committee. And I think you are doing a great job. I appreciate 
the good work that you are doing, despite some of the criticism 
that you are receiving here today. And I applaud you and this 
Administration for breaking from the tired old past, the old 
ways of doing things where you just threw money at welfare 
programs and expected to cure poverty.
    Well, we know after $20 trillion since the war on poverty 
was declared in 1964, that didn't work, but what is working is 
the Trump economy. What is working is tax cuts and 
deregulation. We have the lowest unemployment in 50 years. We 
have the lowest unemployment among African Americans, and 
Hispanic Americans in 50 years of all time for those 
categories.
    We see wages rising faster today than we did since before 
the Great Recession. We are seeing jobs being created, more 
people getting off of food stamps, more people moving into 
self-sufficiency. So Opportunity Zones and these policies are 
producing growth and lifting people out of poverty and away 
from government dependency, and I applaud you for that.
    Secretary Carson, I want to thank you for taking the time 
to come to Kentucky and visit St. James Place and the Hope 
Center and the work that the people are doing there, the 
nonprofit community, the faith-based groups that are working 
with people who are recovering from addiction. And as we 
discussed on your visit, the opioid crisis has hit Kentucky 
very hard. This issue has had a tragic impact on countless 
families across our State and across the country.
    According to the National Institute on Drug Abuse, every 
day, more than 130 people in the United States are dying as a 
result of opioid overdoses, not just pills but heroin and 
Fentanyl as well. Last Congress, as you know, we passed H.R. 6 
to help combat the opioid epidemic, and included in this 
legislation was a bill that I introduced, the CAREER Act. When 
fully implemented by your agency, this legislation will create 
a pilot program to help individuals in their recovery from 
substance abuse disorder to secure stable transitional housing 
and job training.
    And I want to thank you and HUD for taking the first step 
towards implementation of this program with the publication of 
a funding formula in March. That said, as I indicated, 130 
deaths a day. We have to move these pilots forward as 
expeditiously as possible. Is it possible for HUD to move 
forward with this pilot in this fiscal year?
    Secretary Carson. Yes. We are already moving forward with 
it, recognizing, as you said, that this is a national tragedy. 
And we need to actually stop and look at, how do we integrate 
the various agencies, Federal, State, and local agencies, in 
order to take care of this, because it is a national problem? 
And what people need to recognize about opioids is you can get 
hooked on them in a matter of a week or two, but the changes 
that occur in the brain frequently take 12 to 18 months to 
correct.
    So, unless you are involved in an ongoing program, you are 
probably not going to be successful; you are going to have 
relapses. And then that continues to drive up the cost. So we 
really need to have a much more comprehensive way that we look 
at it. The CAREER program is going to help us do that.
    Mr. Barr. Thank you for your leadership and for working 
with us to move that program forward as quickly as possible so 
that we can save lives and move folks out of recovery and into 
long-term jobs and an addiction-free life.
    Just yesterday, sir, HUD rescinded its May 2017 carport 
letters that did not go through the proper administrative 
process to begin with and required alternative construction 
approval for all homes that were built carport-ready. I want to 
thank you for this because that policy proposed a costly and 
time-consuming hurdle for the production of manufactured homes 
that negatively impacted consumers and forced many 
manufacturers to stop offering these carport-ready homes.
    We talked about affordable housing. Overregulation from HUD 
in the past has been an impediment to affordable housing, 
particularly manufactured housing. But we still see that this 
Manufactured Housing Consensus Committee (MHCC), this advisory 
committee, has put forward a lot of recommendations like this, 
and HUD still has not finalized more than 100 recommendations 
by the MHCC, some going back a decade. What can be done to 
change the internal processes at HUD so that more of these 
recommendations are more promptly adopted?
    Secretary Carson. Well, we have beefed up the division that 
is working on manufactured housing recently so that they are 
not just sort of treading water; they are able to really make 
forward progress right now.
    But, on the whole concept of affordable housing, 
manufactured housing is a critical part of that. About 10 
percent of single-family housing units are manufactured housing 
units. The technology has increased dramatically so that it is 
better than site-built housing in many cases.
    Mr. Barr. Thanks for your attention to that, sir.
    I yield back.
    Chairwoman Waters. The gentleman from Texas, Mr. Green, who 
is also the Chair of our Subcommittee on Oversight and 
Investigations, is recognized for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman. I thank the ranking 
member as well. I thank the witness for appearing today. And I 
would like to also thank Mrs. Wagner. She initially called to 
my attention this CDBG-DR program, the possibility of getting 
something done. And she and I have worked together to try to 
perfect it to the extent that it can be perfected. So I am 
grateful to her. I am also grateful to our staffs for working 
on this. While she and I presented concepts, the staff actually 
worked together to make sure that our ideals were achieved to 
the extent that they can be.
    So let's just talk for just a moment about the time that 
you mentioned earlier with the CDBG-DR disaster relief. For 
edification purposes for persons who may be listening and not 
privy to information about this, this program is something that 
comes into being after we have had a disaster, and we currently 
reinvent the wheel each and every time. We don't always have 
the institutional knowledge available to us. People move on. 
And we sometimes have to not only reinvent the wheel; we have 
to reinvent some of the various components. It would be a good 
thing, in my opinion, to codify this program.
    Can you speak briefly to the timeline and how the timeline 
could be benefited by codification?
    Secretary Carson. Yes. There is no question that, 
particularly early on, after a disaster, some of the 
coordination that has to occur between small business, FEMA, 
and HUD is duplicative. And there are ways that we can 
streamline that process.
    And then some of the basic things that have to be done in 
order to get the grant money out is absolutely the same thing 
over and over again. And that is what I meant when I said, if 
we can get those things codified, we can start out on second 
base on our way home rather than having to go completely around 
the whole thing.
    So what you are talking about makes 100 percent sense, and 
I am 100 percent in agreement with it, and we are going to be 
continuing to work with your group to make sure it gets done.
    Mr. Green. Thank you for the announcement of support.
    Let's move on to H.R. 123, which is the FHA Additional 
Credit Pilot Program. There are many people who are first-time 
home buyers who have thin credit, but they do pay utilities--
light bill, gas bill, water bill, phone bill--and they do this 
religiously. They are not late. But these things are not always 
scored. It can be done on an individual case-by-case basis.
    This is important not only to the person who may be able to 
purchase a home, but it is also important to the rest of us 
because, when that home is purchased, washers and dryers and 
curtains and other things are purchased that will impact the 
economy. I am hopeful that you will be able to support the FHA 
Additional Credit Pilot Program. It doesn't mean that other 
credit options that are scored will cease to be scored. This is 
not a substitute; it is in addition to.
    Would you comment, please, on this program and the 
possibility of your supporting it?
    Secretary Carson. Well, there is no question that some 
people come with a very thin credit record, and they are placed 
at a very significant disadvantage. And I was recently looking 
at a study in which they looked at how a person paid their rent 
and how often they paid on time, how often they paid late, and 
they factored that into the credit rating. And in most cases, 
it actually improved their credit score and made it better. So 
we are doing some more in-depth looking at that.
    The FHA Commissioner and I have been talking about this, 
alternative credit scores, again, recognizing that it has to be 
done in a responsible way because you remember, before the 
housing crisis, people were going through some things that 
weren't quite legitimate and put a lot of people into houses 
that they could not afford. And as a result of that, they lost 
their house, they lost their credit, and they lost their future 
opportunities. We certainly don't want to get into that 
situation.
    So we will study it carefully, but I am very open to that 
alternative credit, and I appreciate your working on that.
    Mr. Green. I thank you, and I look forward to our continued 
work to bring these two programs to fruition.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. The gentleman from Colorado, Mr. Tipton, 
is recognized for 5 minutes.
    Mr. Tipton. Thank you, Madam Chairwoman.
    And, Mr. Secretary, thank you for being here, and I 
appreciate the comments you have made so far today.
    I did want to bring up some local issues for us in 
Colorado. I had the opportunity to be able to visit with some 
of our local housing authorities. And in Colorado, they have 
been indicating that it seems HUD has a one-size-fits-all 
approach to its guidelines.
    One program I have heard to be particularly challenging for 
some of the smaller housing authorities is the Real Estate 
Assessment Center (REAC) program. They have been suggesting 
that the inspection guidelines are stringent and difficult to 
be able to meet, especially in physical inspection demand by 
the staff, who need to be able to visit multiple scattered 
sites.
    The GAO recently released a list of recommendations to be 
able to improve the Physical Inspection Program process and 
oversight for the inspectors. Has your Department reviewed some 
of these recommendations and considered including them into the 
execution of the program?
    Secretary Carson. Yes. This is an area that has really 
captured my interest because I was so interested when I came in 
and found people getting passing REAC scores in places that I 
wouldn't want a dog to live in and vice versa. It just made 
absolutely no sense, and it was so inconsistent.
    So we are doing a top-to-bottom analysis of the whole REAC 
scoring process, changing it. We have moved out some of the 
inspectors who had questionable character and brought in 
another host of inspectors. But we are also looking at the way 
that we do the procurement of the inspectors. Before, you would 
take the lowest bidder always, and sometimes you get what you 
pay for. So you obviously have to be cognizant of that.
    Mr. Tipton. Great. Thank you for that. And I would like to 
be able to get your opinion just in regards to regulations, 
their flexibility. Do you think you have enough flexibility to 
be able to accommodate large and small operators as well as 
urban and rural areas?
    Secretary Carson. Well, we always would like more 
flexibility. There is no question about that. It gives us a lot 
more ability to move quickly and to be able to do things. But 
we will manage with what we have.
    Mr. Tipton. And I appreciate that. That is really one of 
the challenges. We obviously have legislators from urban areas 
who also represent a rural area. And so some of the distinct 
differences between being able to accommodate and to be able to 
be responsive to be able to meet those needs, I think is very 
important.
    I have heard from some of my constituents that programs 
like the housing authority scoring system don't account for 
important considerations like individual market conditions. 
Have you given any thought to making it a more geographically 
driven approach to some of the regulations?
    Secretary Carson. I am always in favor of local control and 
not heavy-handed Federal bureaucracy. So, if you have some 
specific suggestions about things that we should be doing to 
make that even more available, I am very happy to work with you 
on that.
    Mr. Tipton. Thank you. And we will follow up with you on 
that. We are trying, like you, to be able to have it locally 
driven as best we can to be able to meet those needs at home, 
and so we will be happy to reach out to you and your office.
    And, Mr. Secretary, just one last question: One worry that 
we have heard on the board in Colorado is that, at all areas of 
government, we are seeing Federal dollars that are allocated 
for State distribution that do not make it out of the 
metropolitan areas into the rural areas. A lot of the grants 
that will go to our States, unfortunately, sometimes stay just 
in the large metropolitan areas.
    Do you see a better way to make sure that we are reaching 
all of the constituents and not discarding people who live in 
rural America?
    Secretary Carson. Well, thank you for mentioning that. One 
of the reasons the Opportunity Zones were left up to the 
Governors in each of the States is so that they could target 
some of the rural areas. As a result of that, about 40 percent 
of the Opportunity Zones are in rural areas. So I think that is 
going to be a tremendous help. Manufactured housing is also a 
big item in rural areas, twice as much as you find them in 
suburban and urban areas.
    So anything that we can do to enhance the manufactured 
housing industry is going to be helpful for the housing 
situation in rural areas.
    Mr. Tipton. Great. Thank you again for being here.
    I am out of time. I yield back.
    Chairwoman Waters. The gentleman from Missouri, Mr. 
Cleaver, who is also the Chair of our Subcommittee on National 
Security, International Development, and Monetary Policy, is 
recognized for 5 minutes.
    Mr. Cleaver. Thank you very much.
    Thank you for being here, Mr. Secretary. I am glad you 
brought up the Opportunity Zone because that is kind of where I 
wanted to hang out for a few minutes. I have gone through the 
last iteration from the Treasury Department's rulemaking 
period, and I am assuming that there are going to be some 
additional rules coming out. What they are calling it so far is 
general rules.
    I have read everything that comes out on Opportunity Zones, 
and so my concern is, right now, I am not sure--well, let me 
ask it this way: What is HUD's role going to be? Treasury seems 
to be doing the rulemaking. And since there is no application 
process, how will HUD fit into all this?
    Secretary Carson. Well, 35 million Americans live in 
Opportunity Zones, and 2.4 million HUD-assisted individuals 
live in Opportunity Zones. The household income in Opportunity 
Zones is about 37 percent below the State levels. High school 
graduation level, 22 percent don't graduate in Opportunity 
Zones versus 13 percent statewide.
    So what we are talking about are the people that HUD has a 
tendency to serve are in Opportunity Zones. That is the reason 
that HUD has been selected to Chair the Opportunity and 
Revitalization Council, which consists of 16 Federal agencies 
and Federal/State agencies, so they can focus their attention 
on the Opportunity Zones and remove the barriers quickly, 
rather than having them go hither, thither, and yon. And so, 
obviously, HUD will be playing a very significant role.
    Mr. Cleaver. But the regulatory responsibility will remain 
with Treasury?
    Secretary Carson. Well, remember, all the regulations come 
from a variety of different agencies. That is why we have 16 
different ones. And we will be able to coordinate and focus 
their attention and remove the regulations quickly that need to 
be removed. Some regulations are important; we recognize that.
    Mr. Cleaver. So if an Opportunity Zone fund is presented 
with an investment to capital gains taxes of a place in this 
fund, does a NOFA come from HUD or--
    Secretary Carson. No. If you are talking about a tax issue, 
that would be Treasury.
    Mr. Cleaver. So that the actual monitoring of it--this is a 
question--would be at the end of the year? If you don't apply, 
you go in, and then you actually deal with it during the tax 
season.
    So I am just hoping that there is not a situation where 
opportunity funds are supposed to invest at least 90 percent of 
the money into the project, and let's say something goes awry. 
It is not going to be known until the end of the year, is that 
right?
    Secretary Carson. In terms of the financial consequences, 
perhaps. But we have an Executive Director who has an office, 
so that we can get real-time feedback all the time so the 
program can be changed as we roll it out.
    Mr. Cleaver. Okay. That is the part I was not familiar 
with. Will the Director be in HUD or--
    Secretary Carson. The office is in HUD. Scott Turner is his 
name.
    Mr. Cleaver. Okay. Do you have any idea when the final 
regulations--when it first came out, we had a two-pager, and 
they were saying this is going to be the least regulated 
project. And then we got 2 or 3 weeks ago something that looked 
pretty thick. And so I am assuming that the final would be 
extremely thick or much thicker.
    Secretary Carson. Most of the regulations have been put 
forward already in the first two tranches. The last tranche 
should be relatively small. And I think the rules are pretty 
well set out at this point. And a lot of money is coming in; a 
lot of activity is occurring.
    Mr. Cleaver. Yes. Thank you, Mr. Secretary.
    Chairwoman Waters. Thank you very much, sir.
    The gentleman from Texas, Mr. Williams, is recognized for 5 
minutes.
    Mr. Williams. Thank you, Madam Chairwoman.
    And thank you, Secretary Carson, for being here today. In 
2015, you wrote an op-ed entitled, ``Experimenting With Failed 
Socialism Again'' about the previous Administration's 
Affirmatively Furthering Fair Housing Rule. Under your 
leadership, HUD has committed to reexamining this rule.
    I want to thank you for being a strong capitalist, first of 
all, and for your service to this country. So can you elaborate 
on why a more socialist heavy-handed government approach to 
fair housing would fail low-income individuals and minorities?
    Secretary Carson. Yes. Well, one of the reasons that I took 
this job is because I was very concerned about what was 
happening, particularly to a lot of disadvantaged people in our 
society, in that we collectively, the government, are actually 
keeping people mired in poverty and dependency because we keep 
going down the same track, whether Republicans or Democrats.
    And so we want to find ways that we can liberate people 
from those kinds of things, and all of our policies are really 
aimed at doing that. Affirmatively Furthering Fair Housing, do 
I want to do that? Of course, I want to do that. But there was 
a system in place, an assessment tool, that basically just gave 
you statistics, and created a big screen with purple dots and 
pink dots and green and yellow, if you move some of the pink 
ones here and the yellow ones here. I am not sure that that 
actually solves the problem.
    Why do you have segregation in housing? It is not because 
George Wallace is standing at the door blocking people; it is 
because people can only afford to live in certain places. So 
what we really need to do is ask ourselves, how do we liberate 
people from that? That is why we have been spending so much 
time and effort on looking at housing choice vouchers and how 
to make them more palatable. That is why we have been looking 
at ways to decrease the regulatory cost so that it is possible 
to build another place, so we can build places like East Lake 
and Purpose Built Communities.
    That is why when we concentrate on community development, 
we concentrate not only on the houses, but on the schools, on 
grocery stores, on transportation, on all of the things that 
allow people to thrive and move up. And that is why we try to 
create programs that enable people to become self-sufficient. 
That is why we provide the services and the information about 
the services because it doesn't do good to have services people 
don't know about.
    Mr. Williams. Opportunities are a good thing. There has 
been a lot of talk about the proposed rule that would prevent 
noncitizens from receiving taxpayer-funded Federal housing 
assistance. We have talked already about that today.
    On May 15th, you received a letter from 12 Democrats that 
stated the following, ``The Administration's approach to this 
proposed rulemaking runs counter to the goals of providing 
housing assistance to the most vulnerable Americans.''
    I personally totally disagree with that. I define a 
``vulnerable American'' as a legal citizen who is not receiving 
any benefits at the cost of someone who is in the country 
illegally.
    So, Secretary Carson, because of your knowledge of the wait 
list for these affected programs, I want to give you the 
opportunity to justify this move of putting the needs of 
American citizens first.
    Secretary Carson. Well, it seems only logical that tax-
paying American citizens should be taken care of first. It is 
just like when you get on an airplane and they make the 
announcement: In case of an emergency, oxygen masks will drop 
down; put yours on first, and then help your neighbor.
    It is the same concept. And it is not that we are cruel or 
mean-hearted; it is that we are logical. This is common sense; 
you take care of your own first.
    And it is also common sense that you ask yourself, why are 
you having all of these kinds of problems? And the answer to 
that is because we won't deal with the underlying problem. And 
until we are willing, collectively, both Democrats and 
Republicans, to sit down and solve the problem, we are going to 
continue to have these problems crop up continually. And why 
would we be fighting the symptoms when we can get to the root 
cause of the problem?
    Mr. Williams. Quickly, have illegal immigrants been able to 
exploit the hole in HUD's regulations, and are you confident 
that you will be able to fix this issue?
    Secretary Carson. I think that we can fix this. We now have 
the SAVE system through DHS, which allows us to identify people 
quickly. This was not the case when this rule was put in place.
    Mr. Williams. Thanks for your testimony.
    Chairwoman Waters. The gentleman from California, Mr. 
Vargas, is recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chairwoman.
    And thank you, Dr. Carson, for being here. I appreciate it. 
I do want to continue the questioning of my friend from Texas. 
One of the things that wasn't mentioned here, and I am a little 
bit surprised you haven't mentioned it, is actually if a person 
is undocumented in a household, the aid is prorated. So the 
person who is undocumented actually doesn't get any subsidy. It 
is the child. It is the American citizen child who is, in fact, 
helped.
    That is one of the things that wasn't mentioned here, and I 
thought it would have been up to now because, again, the law as 
it currently stands and the rules say this, that those children 
that are American citizens, they are helped, again, by 
Americans, even though I would go, of course, and extend it 
further. As a Christian, I don't make the difference between 
someone who is undocumented or not. But the rules as they are 
today say: No, we only take care of the child. That has not 
been brought up in all of this conversation. It should have 
been. My understanding is that is the rule today. Sir, am I 
incorrect about that?
    Secretary Carson. You are not incorrect. And, also, 
interestingly enough, prorating, how do you prorate a roof over 
somebody's head?
    Mr. Vargas. By the number of people who are in there. You 
are taking care of the child, and you do, in fact, prorate it 
against anyone who is ineligible because of their legal status 
or for some other reason. But the child is an American citizen.
    And those 55,000 children are going to be somehow thrown 
out into the street or something else. In fact, your agency 
itself, you guys determined, your analysts, that it was going 
to be more expensive to the Federal Government if this rule 
goes forward. That is not our determination. My understanding 
is that is your determination.
    Secretary Carson. It is our determination. I thank you for 
making that point because the reason it would be more expensive 
is because the people who are on the waiting list are even more 
needy than the ones who are in there. So, yes, we do need to 
take care of them.
    But, as I mentioned before, I would love to be able to take 
care of everybody, but we have to do this within the framework 
of the law. And if people don't like the law, they should 
change it.
    Mr. Vargas. Well, we do have a rule, actually, and it takes 
care of it today. I have to say you did quote and I appreciate 
it, Proverbs 18:17, and I believe there is a second part to 
that. I believe--
    Secretary Carson. 29:18.
    Mr. Vargas. 29:18. I believe the second part says something 
like: And those who--where there is no vision, people perish, 
but happy is the man who follows the law for he is joyful. 
Something like that. There is also Proverbs--Proverbs 29 is one 
of my favorites. Also 7, I believe, goes something like: The 
righteous care about justice for the poor, but the wicked have 
no such concern.
    Now, I don't believe you are wicked in any way. In fact, I 
think you are trying to figure out how to propose something to 
push reform--
    Secretary Carson. Trying very hard.
    Mr. Vargas. --and I don't necessarily disagree with that. 
And I don't believe that this rule could have come from you. I 
was there in 2013 when you spoke at the National Prayer 
Breakfast. I go every Thursday to the Prayer Breakfast, and I 
was the national co-Chair for 1 year. I don't think you are 
mean-spirited at all. I disagree with some of your policies. 
But I have to say, taking these 55,000 children and putting 
them on the street I do think is mean-spirited. I don't think 
it is your nature. I hope you review that.
    Secretary Carson. It is not my nature to want to put 
anybody out on the street, and that is why we provided the 18-
month period.
    Mr. Vargas. Well, I hope and pray that you re-think that. 
Again, I don't agree with all your policies, but I certainly 
know we challenge your view of humanity and that you have been 
a good person and tried to do the right thing. I hope you 
review that.
    I do want to ask about DACA recipients also. My 
understanding has been that DACA recipients have been eligible 
for FHA loans, and, in fact, I want to quote you, to make sure 
this quote is correct.
    I asked around after I read the story, and that is that 
DACA recipients were being denied FHA loans by HUD 
instructions. No one was aware of any changes that have been 
made to the policy whatsoever. I am sure we have plenty of DACA 
recipients who have FHA loans. So are you familiar with any 
changes? Have you made any changes?
    Secretary Carson. No. The same policy has been in place 
since 2003, which was reaffirmed in 2015 by the previous 
Administration. And we have not made any changes to that 
whatsoever.
    Mr. Vargas. Thank you. I hope that that becomes clear out 
there in the community.
    Again, I thank you for being here. Again, we disagree on 
some issues, but I appreciate your openness also towards 
comprehensive immigration reform.
    Secretary Carson. Thank you for being able to disagree 
without being disagreeable.
    Mr. Vargas. Thank you.
    Chairwoman Waters. The gentleman from Arkansas, Mr. Hill, 
is recognized for 5 minutes.
    Mr. Hill. Thank you, Chairwoman Waters.
    Mr. Secretary, it's good to have you back before the 
committee.
    Secretary Carson. Thank you.
    Mr. Hill. I am very pleased you made your second trip back 
to the Second Congressional District in Arkansas. We 
appreciated you coming to our State's Fair Lending and Fair 
Housing Conference, and I heard a lot of positive remarks about 
your comments.
    And we want to have you back as we explore the Opportunity 
Zones with Senator Scott down in the district. And what is 
interesting is one of the Opportunity Zones also abuts one of 
our Historically Black Colleges and Universities (HBCUs), 
Philander Smith College, and to me that is a really interesting 
opportunity because not only has the President asked you to 
work on the Opportunity Zone issue, he has also empowered the 
HBCU executive order to try to maximize all Federal resources 
to enhance the position of our Historically Black Colleges and 
Universities. So this could be a really interesting 
opportunity.
    When you were in Little Rock 2 years ago, you visited with 
Our House, which is a housing homeless holistic approach. We 
don't separate sort of the moral from the economic there, to 
paraphrase Arthur Brooks. It is a holistic approach to 
education and healthcare and childcare as well as getting 
people lifted up and getting back to a productive life. And 
they were very interested in potentially being an EnVision 
Center partner to a local public housing authority.
    Will there be another cohort where public housing 
authorities can offer proposals for partnership?
    Secretary Carson. Yes. We have a real operator in place now 
when it comes to spreading those programs. So the initial 
cohort was really to gain some information on how to do this 
and make it work effectively. So, yes, that will be happening.
    Mr. Hill. Good. Another area I have also listened to in my 
district relates to our local public housing authorities and 
their certification of landowners for use in Section 8 
vouchers. And one of my City Council members, Doris Wright, and 
I toured an apartment complex that, while it also has a good 
mentorship program with a local church that helps with 
childcare and mentoring the residents there, the conditions are 
just deplorable, meaning the physical conditions.
    Can you follow up maybe in writing with what the standards 
are that a city council, a local city council should hold the 
local public housing authority to on certifying that a 
landowner is qualified for receiving a Section 8 voucher?
    Secretary Carson. I think we can get that information to 
you, no question about it. But we do trust to some degree the 
landowners to be reasonable people and have some concern for 
the people. And we do have some degree of oversight. But there 
are legal remedies for people who abuse the tenants as well.
    Mr. Hill. Yes. This was a pretty rough--and I am not 
passing judgment either. I am not a lawyer. I am not a HUD 
inspector. But when you do a cruise through this particular 
complex and look at some of the conditions of the units, one 
might question whether or not they are eligible for Section 8 
money.
    We have had a lot of talk about overcrowding today and 
issues, and we passed legislation here in the Congress. I was 
shocked when I first came to the Congress that New York, a big 
city with a big demand for public housing, I think had a 
waiting list and something like 500,000 units, and yet there 
were tens of thousands of units that people were occupying who 
were making too much money to be qualified to be in public 
housing. And so Congress in the last couple of years reacted. I 
think President Trump signed that into law.
    Are we doing a better job of making sure if you are earning 
too much money, that you have opportunities elsewhere to live 
so that we can make room for some on these long waiting lists?
    Secretary Carson. Well, we are trying to create an 
environment where people feel freer to exit the supported 
housing. And, it is sort of a catch-22, because we have also 
gotten into a situation where, when people begin to climb the 
ladder, we pull the ladder out from underneath them. And then 
everybody else is watching that and they say: I am not climbing 
that ladder.
    So we have to be a little careful about the way that we do 
that, allowing people to exit in a way that they will be able 
to continue climbing that ladder and that they feel comfortable 
going out there. And those are the kind of programs that we 
have to be creating.
    Mr. Hill. Thank you, Mr. Secretary.
    I yield back.
    Chairwoman Waters. Thank you very much.
    The gentlewoman from Ohio, Mrs. Beatty, who is also the 
Chair of our Subcommittee on Diversity and Inclusion, is 
recognized for 5 minutes.
    Mrs. Beatty. Thank you, Madam Chairwoman.
    Mr. Secretary, I have several questions, and because of our 
5-minute time period, I am going to try to get through them at 
rapid speed. As you know, you were here before, and I am going 
to ask you the same question that I have asked every one of 
your colleagues. And I am very hopeful that you can give me a 
yes on this.
    Are you familiar with OMWI and what it is?
    Secretary Carson. With whom?
    Mrs. Beatty. OMWI.
    Secretary Carson. Amway?
    Mrs. Beatty. OMWI. Come on, Mr. Secretary. Now, I asked you 
this when you were here last year, and you asked me to be nice 
to you, and you turned to your staff. OMWI. And you have an 
OMWI Director. And we wrote you a letter about it. OMWI, the 
Office of Minority and Women Inclusion. Do you have an OMWI 
Director? Do you work with the OMWI Director?
    Secretary Carson. Well, of course, we have an Office of--
    Mrs. Beatty. OMWI. Not Amway, OMWI. Do you know who that 
person is?
    Secretary Carson. We have--
    Mrs. Beatty. Do you know who that person is?
    Secretary Carson. I cannot give you the name.
    Mrs. Beatty. Okay. Would you do me a favor, would you find 
out, and would you send me a note back so we don't ever have to 
repeat this again?
    Secretary Carson. We can send you a note on that.
    Mrs. Beatty. Okay, thank you. I had a lot of individuals 
from my district, a group of people who are here today in the 
audience who have questions about FSS. Are you familiar with 
that program?
    Secretary Carson. Family Self-Sufficiency?
    Mrs. Beatty. Yes.
    Secretary Carson. Yes.
    Mrs. Beatty. So one of the questions is, what measures are 
instituted to ensure public housing residents have fair and 
equal access to FSS?
    Secretary Carson. Well, anybody who comes and applies for 
it or asks for it, unless there is any particular reason to 
deny it--the problem is not so much that people are denied 
access to it as that we don't have enough people asking for it.
    Mrs. Beatty. Okay. So the next part, I represent Columbus, 
Ohio, and I am very proud of my public housing authority. And I 
meet with them on a regular basis. As you know, I have spent 
more than 20-some years working in public housing and 
relocation.
    One of the things that my president and CEO asked me to ask 
you about is increased funding for FSS, to allow them to grow 
the program to serve more families, both in public housing and 
in Section 8. It is my understanding that much of the money 
goes for staffing versus service. So I would like to ask you if 
you would look into that to see what we could do with that 
program.
    And I can also tell you and, Madam Chairwoman, I would like 
to enter this document into the record, it is about my 
district. All politics are local. We have an outstanding FSS 
program, where we have had successful graduates; we have had in 
individual financial counseling some 116 people.
    Chairwoman Waters. Without objection, it is so ordered.
    Mrs. Beatty. Thank you.
    The other question is, now that you have had more time to 
think, on the CDBG, my colleague Congressman Scott asked you 
about those funds. Have you had more time to think that you 
would certainly not cut those funds, or is that something you 
want us to get an answer from after you consult with your team?
    Secretary Carson. I have an answer for it. I wasn't given 
an opportunity to finish it. First of all, let me just say with 
Columbus, there is a tremendous job with transitional housing.
    Mrs. Beatty. Thank you.
    Secretary Carson. One of the best in the country.
    As far as CDBG, as I was saying, it has done a lot of good 
things. The problem is that the formula is sometimes 
inappropriate. For instance, it says to give this money to this 
group if the houses were built before 1940. Well, a lot of 
those houses are million dollar mansions.
    Mrs. Beatty. Okay. And I hate to interrupt you, but my time 
is running, and I have just one more question I want to ask.
    Secretary Carson. So the program needs to be modified.
    Mrs. Beatty. Okay, thank you. Also, I was talking with some 
friends and colleagues. As we look at the number of teens who 
are couch surfing, the number of single moms, would you be 
interested in having a dialogue with community leaders?
    I have talked to people who run programs like Susan 
Taylor's program, like public housing, and they feel we should 
be doing more creative things in helping our young folks in the 
housing areas, which helps them with their entire lifestyle. 
Would you be interested in doing something like that?
    Secretary Carson. We are very interested in that. I had an 
opportunity to do some of that with Senator Collins in Maine 
recently. It is an area that needs attention. And Jean Lin Pao 
is the person who heads up the Office of Small and 
Disadvantaged Business Utilization.
    Mrs. Beatty. Thank you.
    Chairwoman Waters. The gentleman from Tennessee, Mr. 
Kustoff, is recognized for 5 minutes.
    Mr. Kustoff. Thank you, Madam Chairwoman, and thank you, 
Mr. Secretary, for coming today. You have had a number of 
members thank you for coming to their district. I also thank 
you for coming to Memphis and to west Tennessee--
    Secretary Carson. Absolutely.
    Mr. Kustoff. --last year.
    I have met with constituents who have an interest in 
strengthening the low-income housing tax credit. And in the 
last Congress, I think there was a bill, the Affordable Housing 
Credit. The tax credit, in my opinion, it is a vital source for 
affordable housing.
    You have stated in the past that HUD has taken steps to 
streamline projects that utilize this particular tax credit. 
Can you expand on that, Secretary Carson?
    Secretary Carson. Well, the low-income housing tax credit 
(LIHTC), is probably responsible for the largest number of new 
affordable housing in the country, so obviously we are 
interested in it. Traditionally, it has about an $8 billion 
budget that has been provided to Treasury for that program.
    Utilizing that along with the RAD program, along with the 
monies that will be coming through Opportunity Zones, provides 
us with an unprecedented opportunity, not only to create 
affordable housing, but really to expend the economic 
opportunities and business opportunities which then have a 
domino effect in terms of creating other economic activity 
around them.
    Mr. Kustoff. Thank you, Mr. Secretary.
    Last Congress, when the Affordable Housing Credit 
Improvement Act was introduced, it seemed to have pretty good 
bipartisan support. One of the provisions in the bill would 
have created a 4 percent credit rate, permanent rate, and 
further credit expansion. What are your thoughts on a permanent 
4 percent credit rate?
    Secretary Carson. For individuals or for communities?
    Mr. Kustoff. For both.
    Secretary Carson. Well, obviously we want to expand credit 
in a responsible way as much as we possibly can, being 
cognizant of the fact that when we do it inappropriately, we 
actually aren't doing people any favors. We are actually making 
their lives more difficult when that happens.
    So any ideas that you have for appropriate expansion of 
credit, we are always going to be in the market for doing that. 
Our FHA Commissioner, Brian Montgomery, is very open to that 
concept as well.
    Mr. Kustoff. Thank you, Mr. Secretary.
    There have been a number of questions today asked about 
community development block grants, and in my district and in 
Memphis and west Tennessee, these block grants in the past have 
been used successfully. Given the CDBG program was put into 
place during the Ford Administration, we could probably look at 
modernizing the program to some extent.
    What are your thoughts about modernizing CDBG to better 
incentivize, if you will, in streamlining permitting processes 
and other policies that may create barriers to the development 
projects?
    Secretary Carson. Sure. There are about 1,210 communities 
now that benefit from the CDBG program, and they are the only 
ones. I think it really should be a much more competitive 
program. I think there are a lot of things that could be done 
so that we really target the low- and moderate-income people 
the way it was supposed to be done. It has been just abused, 
quite frankly. I would be very open to modernizing it and 
working with Congress to get that done.
    Mr. Kustoff. If I could, as it relates to the funding 
portion and what is known as Formula B which is, in part, based 
on data from pre-1940 housing, I know that there are some 
communities that benefit from Formula B, and there are some 
that obviously are harmed by it.
    Would HUD consider looking at Formula B and maybe 
modernizing it or better utilizing it for other communities to 
tap into that formula?
    Secretary Carson. Absolutely, and I think a lot of other 
communities would be absolutely delighted. And it is not that I 
am against the concept of why it was created. We are more 
against what it has become.
    Mr. Kustoff. Thank you, Mr. Secretary.
    Thank you, Madam Chairwoman. I yield back my time.
    Chairwoman Waters. The gentlewoman from Michigan, Ms. 
Tlaib, is recognized for 5 minutes.
    Ms. Tlaib. Thank you, Madam Chairwoman.
    Thank you, Secretary Carson, for coming before this 
committee. I am not sure if you remember the first time we met, 
but it was in the gymnasium of Southwestern High School, our 
alma mater. I was excited that you took the time to come and 
speak to the young people there. You walked the same hallways I 
did, that those very young people did. You grew up in the same 
challenged neighborhoods.
    Secretary Carson, instead of helping the very community you 
grew up in, you have decided to dial back on protections and 
resources that help those in need, that stop housing 
discrimination. This is happening while measures are being put 
in place to criminalize and surveil those very residents that 
we serve.
    And, Secretary Carson, I commend you, I commend HUD in 
recently suing Facebook for the use of racial--facial; it 
should be called racial--facial recognition technology. When 
asked about this lawsuit, you stated that, ``using a computer 
to limit a person's housing choices can be just as 
discriminatory as slamming a door in someone's face.''
    Yes or no, did you benefit from Section 8 housing?
    Secretary Carson. Did I what?
    Ms. Tlaib. Benefit from Section 8 housing.
    Secretary Carson. No, I did not.
    Ms. Tlaib. You didn't. Okay. I do have quotes from the 
past, I think, when you were running for President of the 
United States that you did claim that you did receive some sort 
of voucher for Section 8 housing.
    Secretary Carson. I never claimed that. Other people--
    Ms. Tlaib. That is okay.
    Secretary Carson. Other people claimed that, not me.
    Ms. Tlaib. Oh, I understand. I apologize.
    Would you be okay with facial recognition technology being 
used by law enforcement and other agencies in the neighborhoods 
that you grew up in, including public housing?
    Secretary Carson. I think we obviously have to adjust with 
the technology as it is rapidly advancing. It can be abused, 
and of course, that is one of our jobs to make sure it is not.
    Ms. Tlaib. So, Secretary Carson, are you aware of Project 
Greenlight in Detroit?
    Secretary Carson. Where the mayor is putting up the lights 
to deter crime?
    Ms. Tlaib. Well, in Detroit, Project Greenlight enables the 
police to identify and track residents captured on hundreds of 
private and public cameras. The same surveillance has since 
expanded to include lower-income housing.
    Are you aware that the Detroit Housing Commission that 
receives funding from HUD is currently moving towards using 
Project Greenlight's facial recognition technology for public 
housing?
    Secretary Carson. I think the project has done some great 
good. The mayor has told me that it has solved a lot of the 
crime problems and brought it down. It doesn't mean that we 
don't have to be very careful about how that technology is used 
in the future.
    Ms. Tlaib. So you don't oppose the use of it?
    Secretary Carson. I am not saying--I oppose the 
inappropriate use of it.
    Ms. Tlaib. Okay. Well, currently, my colleague, 
Representative Pressley, and I are introducing a bill that bans 
the use of real-time facial recognition technology in 
federally- funded housing, and I hope that maybe your 
Department can take a look at it and maybe help us move that 
forward so there is no abuse and intentional discrimination 
towards those of color.
    Secretary Carson, the neighborhood that you grew up in, the 
one that really believed in you and I before anyone else did, 
is very much hurting because they have been feeling left 
behind. I believe 71 percent of them, especially in the State 
of Michigan, spend more than half of their income on housing 
costs and utilities. The conditions in HUD housing are getting 
worse with the continued decrease in funding, while backlogs 
for affordable housing grow.
    That day at Southwestern High School, do you remember what 
you told us?
    Secretary Carson. I don't remember now.
    Ms. Tlaib. You said something pretty spectacular, and it 
was very inspiring. You said that no matter if you are poor, 
you can succeed.
    This seems very hard for our people, Secretary Carson, 
today, because the same programs that helped you and I are 
being scaled back. It is your turn to give back, for you to 
remember where you came from, and use your experience of 
growing up poor in Detroit.
    Lastly, you keep saying we are a nation of laws. I hope, 
Secretary Carson, that you and my colleagues who agreed with 
you in that statement would also apply that to the President of 
the United States.
    Madam Chairwoman, I ask unanimous consent for this article 
entitled, ``Controversial surveillance program coming to 
Detroit public housing'' to be submitted for the record. And I 
yield back the balance of my time.
    Thank you, Mr. Secretary.
    Chairwoman Waters. Without objection, it is so ordered.
    The gentleman from New York, Mr. Zeldin, is recognized for 
5 minutes.
    Mr. Zeldin. Thank you, Madam Chairwoman. And thank you, Mr. 
Secretary, for your service, past, present, and future, to our 
country.
    First, before I ask a question, I just want to point out, 
the reason why you wouldn't recognize the term ``OMWI'' in HUD 
is that HUD doesn't have an OMWI. The Dodd-Frank Act doesn't 
require an OMWI. There are other agencies that have it. As you 
point out, you have the Office of Small and Disadvantaged 
Business Utilization, which seeks to accomplish many of the 
same goals, but it's a pretty unfair question to ask you who 
the director is of an entity that obviously doesn't exist 
within HUD. So, my apologies on behalf of my colleague.
    Secretary Carson. Thank you for clarifying that.
    Mr. Zeldin. In my district, I talk to potential homeowners 
and the REALTORS and lenders who serve them, and one thing I 
hear over and over again is how otherwise credit-worthy, hard-
working families can't get into a new home because they aren't 
liquid enough to make that big down payment even though they 
can otherwise afford to pay a mortgage.
    That is why the FHA loan is so essential to Long Island 
families looking to purchase a new home that will help them 
build their own version of the American Dream, and most 
importantly, help them stay on Long Island. These are middle-
class people with good jobs and good credit scores, but maybe 
they aren't liquid enough to put up a large down payment in a 
region with some of the highest real estate values in the 
nation.
    Over the past several years, we have seen traditional 
lenders like banks, which are subject to stringent capital 
requirements and are well regulated, flee FHA lending as a 
result of the use of the False Claims Act to pursue them for 
allegedly ``defective'' loans. The False Claims Act was passed 
by the Lincoln Administration to prevent horse theft and other 
fraud during the Civil War, but a century and a half later, it 
is being exploited by frivolous lawyers, and these unfair 
lawsuits are scaring lenders out of the FHA market.
    Overzealous enforcement of the law by the previous 
Administration encourages bad behavior instead of reining it 
in. A misplaced comma or a staple on a stack of mortgage 
paperwork should not be grounds for a massive lawsuit against 
an honest lender who is helping someone get an FHA loan. For 
many reasons, these lawsuits or just the threat of these 
lawsuits have negative ramifications for FHA and Ginnie Mae and 
are hurting access to affordable housing in my district and 
nationwide.
    What are you doing to bring traditional lenders back into 
this important program?
    Secretary Carson. Well, thank you for that question. And 
thank you for the work that you are doing in your district in 
New York, and I have enjoyed our visits in the past.
    We have been working very closely with the Office of the 
Attorney General and with the Justice Department because we 
recognize that they also have issues, and they want to make 
sure that people don't get away with things. But the problem is 
that it has been much too difficult to sort out what is the 
defect and what is not.
    So we have reexamined the defect taxonomy and finding ways 
that we can clarify for everybody easily and bring this into 
the digital realm so that it is not just somebody sitting 
behind a desk. It makes it much easier if we use technology, 
IT, to just get rid of a lot of the immaterial mistakes and not 
have them count toward any untoward action for that person.
    Mr. Zeldin. Thank you for your work on this issue. It's 
very important for my district, and I know that you and your 
team are laser focused on it, which really is something that my 
constituents are grateful for.
    Something that is very personal to us is the issue of 
veterans' homelessness, and I want to thank you for your 
personal efforts on this particular issue. It is a huge 
challenge, and any veterans who raises their hand willing to 
lay down their life in defense of our freedoms and liberties 
should have food on their table, a roof over their head, and 
shoes on their feet. And anything that you can do, and really, 
working with this committee, working with the chairwoman, the 
ranking member, and working with you as well, if we can pursue 
any new victories during this Congress to help get our 
veterans--just like we really want to get as a goal, really 
want to get every American off of the streets. The one that 
certainly is most personal is when that person goes, deploys 
into combat and they come home, and they are on the street, 
which is outrageous.
    Secretary Carson. I understand.
    Mr. Zeldin. So I thank you for your work on the veterans' 
homelessness issue. I appreciate that HUD and the DOJ are 
working together, because regulatory clarity on the issue that 
we just discussed is essential here so we can make sure bad 
government policy isn't putting up roadblocks to hard-working 
American families who are pursuing the dream of home ownership.
    And I yield back.
    Secretary Carson. Thank you.
    Chairwoman Waters. The gentleman from Utah, Mr. McAdams, is 
recognized for 5 minutes.
    Mr. McAdams. Thank you, Madam Chairwoman.
    Secretary Carson, thank you for being here today. Mr. 
Secretary, would you generally agree that policymakers make 
better policy decisions when they consider all data and facts 
before making the decision?
    Secretary Carson. Yes.
    Mr. McAdams. And would you also agree that it is important 
for policymakers to be transparent and hear from interested 
persons who may be affected by a particular policy?
    Secretary Carson. Yes.
    Mr. McAdams. In fact, I am happy to hear that. It is even 
in HUD's policy statement, 24 CFR Sec.  10.1, so it is great to 
hear these answers from you, and I agree.
    Mr. Secretary, in my home State of Utah, housing prices 
continue to climb dramatically, as in many places around the 
country, and our area is facing a shortage of thousands of 
homes. Just for reference, the median sale price of a new home 
in Salt Lake County in 2018 was up 61 percent from the median 
price in 2010. Three other Wasatch Front counties have had 
similar rates of increase. And since 2010, new households in 
Utah have outnumbered new housing units, so that is new 
households created have outnumbered new housing units by over 
40,000, which explains a lot of the cost increases of housing.
    Because of this, HUD's mission of supporting affordable 
housing access and affordable housing development is vitally 
important to me and to my constituents. So I want to 
specifically ask you about a recent HUD action that may make it 
harder for low- and moderate-income individuals to be able to 
purchase a home.
    Mr. Secretary, last month, FHA issued a mortgage letter 
claiming to clarify documentation requirements for loans 
originated that have down payment assistance from governmental 
entities. That mortgagee letter, however, issued new 
requirements for a number of entities, many of whom had been 
originating mortgages for years and suddenly were no longer 
able to do so. The result of this is that low- and moderate-
income individuals in my district and in many districts around 
the country may no longer be able to purchase a home with no 
longer having access to some of these programs.
    And I understand that this policy is currently under 
litigation, so I respect that you probably can't discuss the 
details of this litigation, but I want to talk to you a little 
about the process, which I think you can discuss.
    Mr. Secretary, what formal process and public comment 
period did HUD or FHA undertake before FHA issued this 
mortgagee letter?
    Secretary Carson. I am not aware of a public process.
    Mr. McAdams. That is absolutely correct. There was no 
public process.
    Mr. Secretary, HUD previously announced that it would 
address governmental down payment assistance programs through a 
rulemaking in both the 2018 spring and fall regulatory agendas. 
What changed at HUD to warrant a decision not to advance 
rulemaking and instead to just issue this guidance through a 
mortgagee letter?
    Secretary Carson. I think it was the feeling of those 
involved that it was creating damage to people and that they 
wanted them to understand what the parameters of being able to 
offer this kind of assistance were and that it should be done 
within one's own jurisdiction. That it tended to metastasize 
outside of one's jurisdiction is when the problems began to 
occur.
    Mr. McAdams. But again, I would go back to HUD's policy 
statement that policymakers make better decisions when they 
consider all data and facts before making a decision and that 
it would be important to include policymakers and other 
interested persons before adopting a particular policy. And 
that is why I think I was disappointed, especially with the 
negative impacts, understanding that there may be rational 
reasons for looking at this, but the negative impacts of 
proceeding with the mortgagee letter before doing a formal 
rulemaking as had been previously promised.
    Secretary Carson. Your point is well taken.
    Mr. McAdams. Thank you, Mr. Secretary.
    It is also my understanding that the mortgagee letter may 
negatively affect tribal government entities more than it would 
affect other housing finance agencies. Do you have any evidence 
that these DPA loans are performing worse than other DPA loans?
    Secretary Carson. I am not familiar with the data that was 
used.
    Mr. McAdams. I think that is because there is no data. HUD 
does not collect taxpayer IDs that differentiate between a 
tribal HFA and a nontribal HFA.
    So, Mr. Secretary, I appreciate the role that you must play 
in protecting taxpayers and the MMIF, but if you do not 
currently collect the appropriate data to judge the success of 
a DPA program, then perhaps we should collect that data before 
moving forward with this policy.
    I yield back.
    Secretary Carson. I agree with you, actually.
    Mr. McAdams. Thank you. If you do agree, I hope that maybe 
we can revisit this and look at engaging the public in the 
process before continuing. Thank you.
    Chairwoman Waters. Thank you.
    The gentleman from Ohio, Mr. Gonzalez, is recognized for 5 
minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman.
    Thank you, Dr. Carson, for being here and for your 
attention and for all your service to the country.
    I want to start by first commending you for taking on 
Facebook and uncovering what I think most Americans, if they 
knew the details of, would be sickened by.
    Could you just briefly sort of describe what you found and 
kind of give an update as to the status of the investigation?
    Secretary Carson. Well, as you know, it is in Federal court 
now, so I can't say too much, but I will say, in general, that 
they are able to collect enormous amounts of information about 
people, and people have no idea that it is being collected.
    The real problem is when you use that information to 
discriminate against people, to either deny information to them 
or to send information only to selected groups of people based 
on the various demographic data that you collect. And this is 
just going to become a progressive problem if we don't nip it 
in the bud. So, I see this as something that is going to be 
very important in our society.
    Mr. Gonzalez of Ohio. Absolutely. Would it be fair to say 
that what you found was essentially that if you are somebody--
let's say you are a REALTOR and you want to target ads on 
Facebook, that you could essentially completely lock out 
individuals based on race, gender, ZIP Code, basically anything 
you want using the data and tools that Facebook provides?
    Secretary Carson. Correct.
    Mr. Gonzalez of Ohio. I would consider that, quite frankly, 
some of the most aggressive redlining this country has ever 
seen. It is redlining in the digital age.
    Secretary Carson. Technical redlining.
    Mr. Gonzalez of Ohio. Technical redlining in the digital 
age. And I, again, want to commend you for your work in 
cracking down on this abusive practice.
    Secretary Carson. Thank you.
    Mr. Gonzalez of Ohio. You sort of alluded to, in your first 
response, that this problem is going to become more profound, 
and I agree with you, as more of our lives move to the digital 
realm. Could you talk a little bit about any discussions that 
you have had internally or investigations that you are 
undertaking or thinking of undertaking with respect to Twitter 
and Google and sort of additional platform security?
    Secretary Carson. Well, we have been in contact with them 
and asked for certain information from them and reserve the 
right to pursue it further, depending on what the 
investigations show.
    Mr. Gonzalez of Ohio. Great. And I look forward to 
following that because, again, I think it is incredibly 
important.
    There was a point when we thought that these platforms were 
essentially going to be liberation technologies, and it wasn't 
that long ago, and I think what we have seen over time is that, 
in the wrong hands, bad actors can use them for very nefarious 
methods.
    Secretary Carson. Absolutely.
    Mr. Gonzalez of Ohio. And again, I commend you for it.
    Last question, and I will just kind of turn it over to you. 
Is there anything that you want to share with the committee 
that you haven't quite had a chance to with respect to the 
ongoing work at HUD?
    Secretary Carson. Yes. I share from my heart my concern 
about our country. We have a very strong country, and the only 
people who can bring us down are ourselves if we continue to 
allow ourselves to be made into enemies instead of being able 
to use our collective abilities and talents to focus on the 
problems that we have and to solve those problems. These are 
things that we are capable of doing. This is America. It is a 
great nation.
    And you look back at the early part of our country, a lot 
of people are critical of us. They said you have the Fords and 
the Kelloggs and the Rockefellers and the Vanderbilts and all 
of these people with all of this money, and then you have all 
the poor people. You can't have a government like that. You 
have to have an overarching government that equitably 
distributes everything.
    What they didn't realize is that those people that I just 
named in our country, instead of just being greedy and passing 
money down from one generation to the next, what they did is 
built the transcontinental railroad and the seaports and the 
textile mills and the factories that allowed us to have the 
most dynamic middle class the world has ever known, which 
rapidly propelled us to the pinnacle of the world.
    They didn't stop there. They built schools and universities 
and libraries and museums and things that really helped to 
create the American Dream. And it is about providing 
opportunities for our fellow citizens, because our most 
precious resource is our people. And if we develop our people, 
we will be successful.
    Mr. Gonzalez of Ohio. Thank you, and I yield back.
    Chairwoman Waters. The gentlewoman from New York, Ms. 
Ocasio-Cortez, is recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you, Madam Chairwoman. And thank 
you, Secretary Carson, for joining us today.
    Secretary Carson, in December 2017, you delivered a keynote 
at the Manhattan Institute where you stated, ``The war on 
poverty sometimes conflicted with the war on drugs, which often 
dealt harshly with nonviolent offenders, taking men away from 
their families and disproportionately affecting minority 
communities.''
    Are these your words?
    Secretary Carson. Yes.
    Ms. Ocasio-Cortez. Do you acknowledge that the war on drugs 
disproportionately impacted black communities and communities 
of color despite marijuana and other drug use levels being 
comparable to white communities?
    Secretary Carson. Traditionally, that has been the case.
    Ms. Ocasio-Cortez. And are you also aware that when a 
formerly incarcerated person is homeless, there is a 60 percent 
chance that they will be rearrested, but if that same person 
has access to housing, the percentage drops to 29 percent?
    Secretary Carson. Housing is one of the factors that is 
beneficial in preventing recidivism.
    Ms. Ocasio-Cortez. I am concerned here that the war on 
drugs has not been solely limited to incarceration and that the 
negative impact of the war on drugs has not been limited to 
incarceration, but also, we have legislative rippling effects 
that also seem to have been codified in our housing system.
    Are you aware of HUD's one-strike rule which evicts tenants 
for a single incidence of criminal activity, no matter how 
minor, with no holistic review?
    Secretary Carson. There is the ability of local 
jurisdictions to alter that rule.
    Ms. Ocasio-Cortez. But federally, this provision still 
persists, correct?
    Secretary Carson. As far as I know, it is still intact.
    Ms. Ocasio-Cortez. And so a person could be stopped and 
frisked and be found in possession of a small amount of 
marijuana, and then be evicted or have their entire family 
evicted from public housing?
    Secretary Carson. That is a possibility.
    Ms. Ocasio-Cortez. Are you aware that owners of public 
housing authorities can subject tenants to tests for alcohol 
and drugs?
    Secretary Carson. They can require that, yes.
    Ms. Ocasio-Cortez. And I see here that we also have no-
fault policies where an entire family can be evicted for the 
criminal activity of a guest of the household, even without the 
knowledge of anyone in that household. Are you aware of that 
provision as well?
    Secretary Carson. The use of such activity is extremely 
limited, if ever used.
    Ms. Ocasio-Cortez. But they are still codified in Federal 
law, correct?
    Secretary Carson. Is it on the Federal books? As far as I 
know, it has been on the books for many, many years.
    Ms. Ocasio-Cortez. Do you support reversing some of these 
provisions?
    Secretary Carson. Which provisions?
    Ms. Ocasio-Cortez. Say the no-fault policy.
    Secretary Carson. I can talk about that in individual 
cases, if you have an example that you want to talk about.
    Ms. Ocasio-Cortez. Like, say, would you support being able 
to move some of these policies over to a more holistic review? 
You, yourself, asked for a case-by-case consideration. Should 
that case-by-case consideration be codified in Federal law 
instead of having blanket one-strike or no-fault policies?
    Secretary Carson. I am always in favor of more flexibility.
    Ms. Ocasio-Cortez. Well, I am happy to hear that, Secretary 
Carson.
    I would also like to highlight, there has been much talk 
about the issue with NYCHA and public housing. And it is 
horrifying the conditions that are happening in NYCHA. It is 
horrifying that people are living through winter without heat, 
opening their ovens to try to make sure that they are able to 
sleep through the night.
    But I think it is important to note that this is not about 
throwing more money to the problem; this is about throwing the 
money at the problem. NYCHA and public housing across the 
country has been starved by Members of Congress for over 15 
years, and that deficit has built up for many, many years, 
which has led to, in New York City alone, a $32 billion price 
tag to make sure that we get people basic heat, hot water, and 
so on.
    And I don't think, no matter what policy changes we make, 
that you can take food away from a child and then not 
understand why they can't or don't eat. And I think that is 
exactly what is happening with our public housing program.
    Madam Chairwoman, I would like to seek unanimous consent to 
submit to the record a New York Times article on what it would 
take to fix New York's public housing.
    Chairwoman Waters. Without objection, it is so ordered.
    Ms. Ocasio-Cortez. Thank you very much. And I would also 
like to note that the provisions that we wanted to reverse, 
including one-strike and no-fault policies, are being 
introduced in our bill on the Fair Chance at Housing Act.
    Thank you very much.
    Chairwoman Waters. The gentleman from Tennessee, Mr. Rose, 
is recognized for 5 minutes.
    Mr. Rose. Thank you, Chairwoman Waters.
    And thank you, Secretary Carson, for being with us today 
and for your frank testimony today. I can't help but 
acknowledge your great personal life story, as I begin today, 
and know that you came up under very tough circumstances. And 
through the leadership of folks like your mother, you were able 
to overcome those circumstances.
    I am wondering, though, as you have now had a couple of 
years in government service as Secretary of Housing and Urban 
Development, do you find the challenges of serving in this way 
to be tougher than those that you experienced as a neurosurgeon 
very successfully tackling many problems?
    Secretary Carson. Well, I can tell you as a neurosurgeon, 
the operating room was a haven. You could go in there and get 
away from all the problems of the world. But one of the great 
things about medicine is you are able to intervene in people's 
lives and give them a second chance.
    And despite the difficulties of this job and the attacks 
and criticism, there is an opportunity to change people's 
lives, to change the trajectory of our nation, to change the 
way that we do things, to go from just taking care of people to 
actually setting people on a trajectory towards success.
    Mr. Rose. You talked earlier about the situation where, due 
to planned improvements in public housing, sometimes people are 
displaced, and how very often they find that after they have 
moved on, they find a better solution. I wonder if there are 
any lessons that you may have learned or the Department may 
have learned from seeing that, that might help guide us toward 
helping people move beyond public housing?
    Secretary Carson. Well, the key thing that I have seen is 
when we develop communities in a holistic way, it almost 
doesn't matter where they are. You provide the sustenance 
through what people need in order to develop.
    One of the things I learned from the HUD-Veterans Affairs 
Supportive Housing (HUD-VASH) program--that is for veterans and 
veteran homelessness. HUD provides the housing, and the VA 
provides the wraparound services. It doesn't work when we just 
give them housing. It doesn't work when we just give them 
wraparound services. But when we put both together, we have a 
tremendous impact in terms of getting those veterans back to 
being self-sufficient again. That is the same policy that I 
want to use today for the people who are being assisted in 
housing.
    Mr. Rose. In Tennessee, we have a very successful housing 
finance agency, the Tennessee Housing Development Agency 
(THDA). Because THDA is highly integrated into local 
communities and has staff who understand both national programs 
and State-run programs, they are able to have great success in 
prudently and affordably housing folks in the 6th District in 
Tennessee. In general, they do not utilize a one-size-fits-all 
approach. Instead, they tailor their work to best help the 
individual constituent.
    I tend to think that local problems often require local 
solutions. In fact, they usually do. The housing issues in 
Memphis are not the same as the ones in Nashville, just like 
the issues in New York City are not the same as for my 
constituents in the 6th District of Tennessee. For example, 
manufactured housing may not make sense in Manhattan, but it is 
a significant or an integral part of rural housing in 
Tennessee.
    How can we best leverage these State finance agencies in 
trying to address the affordable housing shortage in our 
country?
    Secretary Carson. Well, I think we just have to keep an 
open mind, as you said, recognizing that the needs are going to 
be different in every different district. We also need to 
concentrate on modernizing our building techniques.
    And on June 1st through June 5th, there will actually be a 
showcase of new housing techniques on the National Mall. I 
invite all of you to come to it. 3D printed housing, 
manufactured housing, all kinds of new techniques and 
materials, some of which cost considerably less than what we 
are doing now. Integrating those kinds of things into our 
housing policy, I think is going to be something that will help 
us out tremendously.
    Mr. Rose. Do you share my view that local problems require 
local solutions, and as a country, we need to take 
responsibility at the community and local level, rather than 
simply solving every problem by spending more and more Federal 
dollars?
    Secretary Carson. I not only share it, but I 
enthusiastically endorse it. It has to be all of us working 
together, not pointing fingers at each other, but working 
together.
    Mr. Rose. Thank you, and I yield back.
    Chairwoman Waters. Thank you.
    The gentlewoman from North Carolina, Ms. Adams, is 
recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman. And thank you, 
Secretary Carson, for being here today.
    We have had some discussion today about the choice 
vouchers, and many public housing agencies have wait lists. In 
my district in Charlotte, North Carolina, in Mecklenburg, we 
have more than 30,000 people who are on the wait list for a 
housing choice voucher. That includes women and children and 
families, people with disabilities, seniors, young people, and 
the list goes on.
    If you can just give me a yes or no to this because I have 
a couple of other questions, do you believe that the Federal 
Government is dedicating enough funding and resources to ensure 
that individuals who are most in need of housing can access an 
affordable place to live?
    Secretary Carson. Would I love to be able to give a lot 
more? Of course.
    Ms. Adams. Okay. Thank you.
    So given the severe shortage of public housing and Federal 
rental assistance, why did the budget request for Fiscal Year 
2020 zero out programs like CDBG, the Public Housing Capital 
Fund, and HOME, and you only asked for $8.7 billion less than 
2019?
    Secretary Carson. Because we have to make tough choices in 
a budget because we have a $22 billion deficit--debt, and we 
have children and grandchildren and people who will be coming 
after that who will be responsible for that, so real compassion 
includes them as well.
    Ms. Adams. Okay. So when we talk about the housing choice 
vouchers, was there any reason that you didn't ask for more 
funding for that?
    Secretary Carson. For exactly the same reason. Would I love 
to be able to have enough for everybody to have one? That would 
be great.
    Ms. Adams. Okay. Let me ask this question in terms of the 
vouchers. In 2016, we had 127 people in Charlotte who received 
the voucher, and 45 of those vouchers expired. So that means 
that individuals who were searching for housing, they were 
doing that for 120 days, as I understand, it is 4 months, and 
so they are going to have to give them back. They have been 
turned away because landlords and property managers don't want 
to rent to folks with Section 8 vouchers. And so I think that 
there may be some income source discrimination. I think that is 
unfair and that it is just plain and simple that that is 
unfair.
    So given this data, do you believe that we need a Federal 
law prohibiting this income discrimination?
    Secretary Carson. I think we certainly need to be looking 
at what are the impediments for people to accept those 
vouchers, and that is exactly what we are doing right now. If 
we go through that process and it is still a problem, maybe a 
Federal law may be necessary.
    Ms. Adams. Okay. What about in terms of the folks who are 
having to give them back? Is there a way to extend the 
timeframe? I mean, 4 months obviously is not enough in some 
cases.
    Secretary Carson. There are hardship exemptions in 
existence which can be utilized in those situations.
    Ms. Adams. Okay. Since we--I have a few more minutes. Since 
you have rolled back the Affirmatively Furthering Fair Housing 
rule, what specific actions is HUD currently taking to ensure 
its guarantees are fulfilling their fair housing obligations to 
tackle segregation and housing discrimination?
    Secretary Carson. Well, when I took office, there were 602 
discriminatory actions. We are down to about 100 now. We have 
gone through all of those. And in addition to taking care of 
the new ones that have come in, we get about 8,000 a year, so 
we have been extremely active in pursuing those. And I have 
made it very clear to all the organizations, if anybody knows 
of discriminatory activity that is going on that we are not 
already addressing, please let us know.
    Ms. Adams. Okay. Have you received any complaints at this 
point?
    Secretary Carson. Like I said, we get about 8,000 a year, 
and we deal with them as they come in.
    Ms. Adams. Okay. Do you know about how many you have 
resolved?
    Secretary Carson. The resolution is about 80 percent.
    Ms. Adams. Okay. Thank you.
    Madam Chairwoman, I yield back.
    Chairwoman Waters. The gentleman from Wisconsin, Mr. Steil, 
is recognized for 5 minutes.
    Mr. Steil. Thank you, Chairwoman Waters.
    And thank you, Secretary Carson, for coming today. I want 
to talk to you about Opportunity Zones. In southeast Wisconsin, 
we have a handful of Opportunity Zones, in particular in the 
Cities of Janesville, Racine, and Kenosha. There is a lot of 
opportunity in these Opportunity Zones, and people are quite 
excited about the possibilities that they bring to bring 
rejuvenation into these cities.
    Could you comment on what you are working on at HUD in 
supporting qualified opportunity fund investments in housing?
    Secretary Carson. Yes. We actually have a lot of components 
that are working on this. For instance, when it comes to 
economic empowerment and development, the Commerce Department 
is spearheading the activity. When it comes to 
entrepreneurship, Small Business is spearheading the activity. 
When it comes to education and workforce development, both the 
Labor Department and Education Department. When it comes to 
safe communities and environmental concerns, the Department of 
Justice is spearheading that. And when it comes to assessment 
of what is going on and measurement, the Council of Economic 
Advisers is spearheading that. So we have a number of different 
spearheads tackling the problem.
    Mr. Steil. I appreciate that. And I would ask you, if your 
schedule permits, sometime to come to southeast Wisconsin and 
explore firsthand what opportunities these Opportunity Zones 
present to some of the communities in the area that I have been 
privileged of being a voice for.
    Secretary Carson. I would love to. I have been there 
before, Racine in particular, at SC Johnson. Good things are 
going on there.
    Mr. Steil. We would love to have you back.
    I want to shift gears in my limited time and talk about 
State and local barriers to development. And so, Secretary 
Carson, many of my colleagues seem to believe that the answer 
to our housing is simply in the amount of money we spend, but I 
think we are coming to a bipartisan consensus and it is 
emerging. And we are recognizing also the role of State and 
local barriers to development, in particular, those that are 
restricting access to housing.
    Strict land use laws in places in particular like New York 
and San Francisco and Los Angeles are making it hard to deliver 
affordable housing, and this is pricing low-income families out 
of their neighborhoods. It makes it hard for the striving young 
people to move to a place where jobs are actually plentiful.
    Can you talk about the high regulatory cost and how it is 
making it harder for HUD and local housing authorities to serve 
those in need?
    Secretary Carson. Yes. Well, when you look at zoning 
regulations, for instance, you take a place like Los Angeles, 
70 to 80 percent of the land is zoned for single-family housing 
with a certain amount of property. And then you throw on top of 
that all of the regulatory barriers, including recently, the 
need for some solar input. Are you kidding me? So this just 
piles up, and that is why you see people who make $50,000, 
$60,000, $70,000 a year living on the street in tents.
    This can be resolved, but it needs to be resolved with 
Federal, State, and local authorities. I understand that Mayor 
Garcetti has recently begun to look at allowing accessory 
dwelling units, which will certainly help the situation. Those 
are the kinds of things, though, that we have to be looking at.
    As I said before, we can solve this problem. Don't make it 
political. Let's just use what we have and solve it.
    Mr. Steil. I appreciate those comments. It is an incredibly 
important topic, and we need to continue to look at the local 
aspect of these land zoning rules that are driving up the cost 
of housing in very particular communities in the United States. 
And I appreciate your time today.
    I yield back. Thank you.
    Secretary Carson. Thank you.
    Chairwoman Waters. Thank you.
    The gentleman from New Jersey, Mr. Gottheimer, is 
recognized for 5 minutes.
    Mr. Gottheimer. Thank you, Chairwoman Waters. And thank 
you, Mr. Secretary, for being here today.
    Secretary Carson. Thank you.
    Mr. Gottheimer. One of the issues that I am particularly 
focused on is the tightening of the credit box. I know that you 
and my colleagues on both sides of the aisle, we all agree that 
we need to expand access to credit in a responsible manner so 
that those who deserve to be in a home can be. We also know 
that HUD plays a critical role in getting people in homes.
    Secretary Carson, in your opinion, what is the biggest 
factor that has caused the credit box to shrink, and what is 
HUD doing to combat it?
    Secretary Carson. Fear, I think. Risk. Fear of risk and 
looking at things that have happened historically.
    What are we doing about it? We are trying to expand the 
number of people who will give credit by alleviating some of 
their anxiety. I just mentioned what we are doing with the 
False Claims Act so that we can bring more people who can 
provide credit into the market.
    Mr. Gottheimer. Are you seeing a shift?
    Secretary Carson. I think it is starting to shift, 
absolutely. It is going to take a while for people to trust 
what is going on, but they will see, over the course of time, 
that we are consistent.
    Mr. Gottheimer. Thank you. And also, I was hoping to ask 
you about a specific extension of credit and expanding--you 
started to talk about this in a previous answer, so just one 
level down on Federal housing authority loans, right, which you 
have covered.
    In your testimony specifically, you said that you have 
noticed a greater number of borrowers looking for FHA loans 
with higher debt and lower credit scores, and HUD is using 
closer scrutiny before issuing these mortgages to mitigate 
risk. How is HUD currently working to strike a balance between 
promoting access to credit via FHA loans and managing risk?
    Secretary Carson. Well, we are trying to look at data, and 
using that rather than just using ideology when it comes to 
issuing credit. That really comes from my days in medicine 
where evidence made a lot of difference, and that is the 
difference between the fact that at the last turn of the 
century, before 2000, the average age of death was in the 50s. 
In 2000, it was approaching the 80s. The main difference is 
that the medical profession began to use evidence in their 
policy, and it made a huge difference in our longevity.
    Mr. Gottheimer. And when you said closer scrutiny in your 
testimony, is that using the data? How are you using the data 
differently? How has that process changed, if you don't mind me 
asking?
    Secretary Carson. Well, you look at things--you look at 
best practices. You look at things that have worked in some 
areas, and you say, why is that working? You try to dissect 
that out, and then you see if you can make that more broadly 
applicable.
    Mr. Gottheimer. Great. And I thank you very much for your 
time today.
    Thank you. I yield back.
    Chairwoman Waters. The gentleman from Texas, Mr. Gooden, is 
recognized for 5 minutes.
    Mr. Gooden. Thank you, Madam Chairwoman.
    And thank you, Secretary Carson. Is there anything you 
haven't talked about today you would like to discuss?
    Secretary Carson. Oh, boy. That opens up a big box. But I 
will tell you, the thing that I am most concerned about is the 
affordability of housing. We have more than 8 million families 
in the United States who pay more than 50 percent of their 
income for housing, and we need to really focus a lot of 
attention on that and get this problem solved.
    Mr. Gooden. Do you think spending more money will solve 
that problem?
    Secretary Carson. Spending more money is not the solution. 
Again, getting to the etiology of the price increases and what 
can we do that will enable us to build more housing, more 
affordable housing.
    Mr. Gooden. Several of my colleagues have mentioned you 
have been inaccessible. Have you met with leadership of this 
committee and with my colleagues across the aisle to discuss 
their ideas?
    Secretary Carson. I have tried. The chairwoman has not had 
time to meet with me, but I have met with several other members 
and we have made some good progress.
    Mr. Gooden. Well, I would encourage those discussions to 
continue. And I thank you for your work and the hard work you 
have done at your organization and for what is to come.
    Thank you. I yield back.
    Chairwoman Waters. Thank you.
    The gentlewoman from Virginia, Ms. Wexton, is recognized 
for 5 minutes.
    Ms. Wexton. Thank you, Madam Chairwoman.
    And thank you, Secretary Carson, for joining us here today. 
As you may be aware, the House last week passed the Equality 
Act, which includes a lot of broad protections for the LGBTQ 
community. But for our purposes, one of the things I am most 
pleased about is that we are explicitly including the LGBTQ 
community as part of the Fair Housing Act's nondiscrimination 
protections.
    Do you agree with this inclusion?
    Secretary Carson. Well, I certainly agree with 
nondiscrimination and with being fair to every single 
individual in our society.
    Ms. Wexton. So you would approve of the inclusion of the 
LGBTQ community as a part of the Fair Housing Act's protections 
explicitly protecting them from discrimination in housing?
    Secretary Carson. If you want to include them as one of the 
protected classes, I think that is something that Congress will 
be responsible for.
    Ms. Wexton. Very good. And I guess one of your 
responsibilities would have to do with the rulemaking and the 
rules for HUD and inclusion within HUD. Is that correct?
    Secretary Carson. And our responsibility is to make sure 
everybody is treated fairly.
    Ms. Wexton. In March 2017, your agency removed links to key 
resource documents informing emergency shelters on best 
practices for serving transgender people facing homelessness, 
and you withdrew a proposed policy that would have required 
HUD-funded emergency shelters to post notices to residents to 
inform them of their rights to be free of anti-LGBTQ 
discrimination under HUD regulations, right?
    Secretary Carson. We are creating a situation where there 
is more local jurisdictional control.
    Ms. Wexton. But you removed that guidance from the site, 
and it has not been replaced?
    Secretary Carson. That is correct.
    Ms. Wexton. Okay. And last month, while you were testifying 
before the House Appropriations Committee about HUD's 
withdrawal of these guidance documents, you said that they were 
not needed and that the equal access rule was in place. Is that 
correct?
    Secretary Carson. The rules from 2012 and 2016 adequately 
provide for fairness for all communities.
    Ms. Wexton. So those rules are still in place?
    Secretary Carson. Yes. They have not been removed.
    Ms. Wexton. Okay. And you also stated, ``We have not made 
any attempt to change them.'' Is that correct?
    Secretary Carson. We have not changed any of the rules.
    Ms. Wexton. And that was the case when you testified in 
Appropriations. Is that still the case today?
    Secretary Carson. It is still the case today.
    Ms. Wexton. Okay. And can you assure this committee that 
you will not make any--that HUD does not have any current or 
future plans to eliminate the equal access rule in rulemaking?
    Secretary Carson. I am not going to say what we will do in 
the future about anything. We don't know what we are going to 
do in the future.
    Ms. Wexton. Are you currently anticipating doing that?
    Secretary Carson. I am not currently anticipating changing 
the rule.
    Ms. Wexton. Well, what has your agency done to ensure that 
the equal access rule is implemented and that recipients of HUD 
funding are aware of their responsibilities under the equal 
access rule?
    Secretary Carson. We have left the rules up from 2012 and 
2016, and we have made it very clear that we will continue to 
enforce fairness for everyone. And when something is brought to 
our attention that is not fair, we will deal with it.
    Ms. Wexton. So you are not being proactive; you are just 
going to be reactive on this issue?
    Secretary Carson. We are being very proactive in terms of 
making sure that discrimination is not occurring.
    Ms. Wexton. But, Secretary Carson--
    Secretary Carson. As I told you--
    Ms. Wexton. --you just testified that you took down the 
guidance, right, and it has not been--
    Secretary Carson. The guidance was not necessary. The 
guidance was providing a lot of regulatory input, a Federal 
thumb on everything, as opposed to allowing local jurisdictions 
to make their rules based on the 2012 and the 2016 rules.
    Ms. Wexton. So you don't think it is appropriate for HUD to 
do that at the national level?
    Secretary Carson. Not on that issue, no.
    Ms. Wexton. Okay. So you have removed the guidance. You 
testified that you have no plans to eliminate the equal access 
rule, but you are also not proactively enforcing it. You are 
waiting for complaints to filter their way up to HUD, and then 
you will deal with it. Is that what you are saying?
    Secretary Carson. No. One of the things that I am saying is 
if you want to do something different about the definition of 
gender, that is a congressional duty.
    Ms. Wexton. Thank you. I have no further questions. I will 
yield back.
    Chairwoman Waters. The gentleman from Virginia, Mr. 
Riggleman, is recognized for 5 minutes.
    Mr. Riggleman. Thank you, Madam Chairwoman and Ranking 
Member McHenry.
    Secretary Carson, I appreciate you taking the time to 
answer all of our questions today. Having escaped poverty and 
lived in public housing, you certainly bring an important 
perspective to many of the housing challenges we are facing 
today, and we are grateful to have you here.
    In your June 28th testimony before the Financial Services 
Committee, you mentioned the issue of the FHA having to deal 
with what you called very archaic IT. Just last Thursday, HUD 
received a Federal Information Technology Innovation Award for 
advancements in data analytics and digital transformation, with 
which I am a little bit familiar.
    Secretary Carson. Thank you.
    Mr. Riggleman. Could you expound on some of the things HUD 
has been working on over the last year to modernize old IT 
systems? And in your opinion, what specific things still need 
to be done in order to bring HUD's IT programs up to date?
    Secretary Carson. Well, still, a lot of our platforms are 
40 years old, so technology has been left behind. But what we 
have done is been able to create a dashboard that gives us 
real-time information about where our grant money is and how it 
is being spent. And this allows us to provide more flexibility 
to the various jurisdictions. So that is something that I am 
very excited about.
    In FHA, thanks to Congress, we have been able to at least 
start updating our information technology platforms. It is 
going to take quite a bit more, but we are getting there. And 
that is the important thing, because we don't want to fall 
behind all the other servicers, and that puts a lot of taxpayer 
money at risk, but it also makes us inefficient. And that is 
something that we want to change as quickly as possible.
    Mr. Riggleman. Thank you. Because I think, 40 years ago, I 
was playing pong. So I am glad that you say there are some 
advancements going on here. So thank you for that.
    And another topic I would like to address are Opportunity 
Zones, and the reason is because I have the biggest district in 
Virginia. It is actually bigger than six States. It is bigger 
than New Jersey. And we have the most--even though we have one 
of the 11 districts, I think we have 18 percent of the 
Opportunity Zones throughout the entire State. They were 
created under the Tax Cuts and Jobs Act of 2017 to stimulate 
economic growth and job creation.
    Could you discuss some of the things HUD is doing to 
incentivize, as far as incentivizing economic growth in low-
income communities through Opportunity Zones? And are the 
criteria for designating Opportunity Zones changing or 
expanding in the future?
    Secretary Carson. Yes. We are providing preference points 
for people who were willing to go into Opportunity Zones. And 
you can buy something there. You can build something there. You 
can invest in something there. There are a number of mechanisms 
that you can utilize.
    We are also providing expertise, people who can help people 
create programs that will attract other resources into the area 
and ways to partner with entities that already exist within the 
Opportunity Zone.
    Mr. Riggleman. And as everybody knows already, I am very 
supportive of Opportunity Zones, especially with the Fifth 
District of Virginia having so many. And we don't have a lot of 
time, but I think I have one more question here. And I thank 
you again very much for answering these questions.
    Over the last several years, we have seen a dramatic 
increase in natural disasters. In my district particularly, we 
have been affected by multiple hurricanes and flooding. In your 
opinion, how would you rate HUD's response to the most recent 
disasters?
    Secretary Carson. Well, we have had an unprecedented number 
of disasters since I became the HUD Secretary. I hope I haven't 
caused them. But the fact of the matter is I think the response 
has been good. I am never satisfied with it. That is why I am 
always asking, is there something else we can be doing to get 
these funds out faster? But I do recognize that HUD is the 
long-term entity when it comes to a disaster. SBA, FEMA, and 
the Army Corps of Engineers are the short-term responders. 
Having said that, I still want to speed the process up.
    So the whole concept of codification in certain arenas is a 
good concept. Taking out unnecessary steps is a very good 
concept. And I would personally like to get it down to when you 
have a disaster, in 6 months you will have everything you need.
    Mr. Riggleman. Thank you, Secretary Carson, very much.
    I yield back.
    Chairwoman Waters. The gentlewoman from California, Ms. 
Porter, is recognized for 5 minutes.
    Ms. Porter. Good afternoon, Dr. Carson. Are you in favor of 
or opposed to adjusting the interest curtailment penalty 
schedule for FHA loans that are in default?
    Secretary Carson. I don't know that I can say broadly. I 
think you--
    Ms. Porter. Well, I am asking you to state specifically.
    Secretary Carson. I think you have to look at specific 
cases. In some cases, I might be in favor of it; in some cases, 
I might not.
    Ms. Porter. Okay. Do you know what the interest rate 
curtailment schedule is at FHA and how it is different from the 
GSEs?
    Secretary Carson. Well, we tend to try to maintain a lower 
interest rate at FHA because we are trying--
    Ms. Porter. I am not asking you about the interest rate, 
sir. I am asking you about debenture interest curtailment 
penalties.
    Secretary Carson. Please explain.
    Ms. Porter. So FHA uses different servicing and conveyance 
procedures than the GSEs do. And the result is that the cost of 
mortgage servicing at FHA for a nonperforming mortgage is 3 
times the cost of doing the equivalent servicing at the GSEs 
for a nonperforming loan.
    That tripling of cost in servicing then has the effect of 
reducing the credit availability to the American people, 
because when you drive up servicing costs, then servicers 
overlay with cost overlays, and it makes the loans more 
expensive for the very homeowners that FHA is designed to 
serve.
    So my question I am trying to drive at here is, why is FHA, 
to use a term that I think we can both understand, lousy at 
servicing mortgages?
    Secretary Carson. Okay. I have not had any discussions 
about that particular issue, but I will look it up, and find 
out what is going on.
    Ms. Porter. So, as you look it up, I would also like you to 
get back to me, if you don't mind, to explain the disparity in 
REO rates. Do you know what an REO is?
    Secretary Carson. An Oreo?
    Ms. Porter. No, not an Oreo, an REO. REO.
    Secretary Carson. Real estate.
    Ms. Porter. What does the ``O'' stand for?
    Secretary Carson. Organization.
    Ms. Porter. Owned, real estate owned. That is what happens 
when a property goes to foreclosure, we call it an REO. And FHA 
loans have much higher REOs, that is, they go to foreclosure 
rather than to loss mitigation or to nonforeclosure 
alternatives, like short sales, than comparable loans at the 
GSEs.
    So I would like to know why we are having more foreclosures 
that end in people losing their homes, with stains to their 
credit and disruptions to their communities and their 
neighborhoods, at FHA than we are at the GSEs.
    Secretary Carson. I would be extremely happy, if you would 
like, to have you work with the people who do that.
    Ms. Porter. Well, Dr. Carson, respectfully, that was my day 
job before I came to Congress. So now it is my job to ask you 
to work with the people.
    Secretary Carson. I am talking about the people at HUD who 
do that. I would be happy to--
    Ms. Porter. I have spent a decade working with the people 
at HUD on this problem. So what I would like you to do is to 
take this back to FHA and to ask the folks at FHA, because, 
since 2007, I have been writing about the problems in FHA's 
servicing. I am a huge fan of FHA. I am a believer in their 
mission, and I am a champion for them. Are you?
    Secretary Carson. Of course, I believe in the mission of 
FHA.
    Ms. Porter. Are you a champion for the institution, the 
organization?
    Secretary Carson. Very much so.
    Ms. Porter. Okay. So let me make sure you understand. When 
a loan--the most common outcome for an FHA loan that goes into 
default is REO. There is a conveyance process. Are you familiar 
with this?
    Secretary Carson. I know about the conveyance process.
    Ms. Porter. So let me ask you about conveyance. What 
actions is HUD taking to change the conveyance process at FHA 
to address the loss recovery differential between FHA loans and 
GSE loans?
    Secretary Carson. Well, again, you are getting way down in 
the weeds here.
    Ms. Porter. Because real American people are out of their 
houses. So they are literally in the weeds when they are 
foreclosed on.
    Secretary Carson. Understood. And I am very happy to put 
you in contact with the people who deal with that. If I got 
down in the weeds on every issue, I wouldn't get very far.
    Ms. Porter. Okay. I appreciate that, but this has been a 
problem for years. The Urban Institute issued a major report on 
this, and I will be happy to send you a copy.
    Secretary Carson. I appreciate you bringing it to my 
attention.
    Ms. Porter. I want to make sure you--let me ask you this: 
Given these problems, the outcome is that FHA is the leading 
cause of blighted homes in the United States. What can you do 
about that? Do you understand the relationship between the 
blight and the servicing problems?
    Secretary Carson. Well, I understand that blight is a huge 
problem and that--
    Ms. Porter. And that it comes from your agency's inaction 
on servicing.
    Secretary Carson. I am not sure that I am willing to accept 
that FHA is the cause of all the blight that we have.
    Ms. Porter. I hope you feel differently after you read the 
report. Thank you.
    Chairwoman Waters. The gentleman from Illinois, Mr. Garcia, 
is now recognized for 5 minutes.
    Mr. Garcia of Illinois. Thank you, Madam Chairwoman.
    And, Secretary Carson, thank you for being here with us 
today and engaging us in conversations about HUD. I want to 
begin with a proposal pending before this committee known as 
the Safe Housing for Families Act. It recognizes and seeks to 
take action in the aftermath of 13 deaths that have occurred in 
federally subsidized housing since 2003, including as recently 
as February when Anthony and Gwendolyn Fleming died of carbon 
monoxide poisoning at Hickory Hollow Cooperative, a HUD-
subsidized housing complex in Wayne, Michigan, near to your 
childhood home. The Flemings' deaths were the third and fourth 
deaths to occur this year. Since April, as you know, HUD has 
been developing a rule to put an end to these preventable 
deaths by requiring CO2 detectors in public housing, but it 
could be many months before that rule is finalized, as the 
process goes.
    On Friday, a story ran on NBC News' website in which a HUD 
spokesperson is quoted as saying, ``Congress can fix this by 
passing legislation requiring carbon monoxide detectors for 
those living in HUD housing units where detectors are needed.''
    Secretary Carson, that legislation is before this committee 
today. This is that public hearing. The Safe Housing for 
Families Act would codify the rule so that you are developing 
into law and would provide $10 million in funding over 10 years 
to carry out the objective of stopping avoidable deaths like 
the ones I mentioned. This is double the amount that HUD 
announced yesterday would be made available.
    Secretary Carson, would you support the Safe Housing for 
Families Act?
    Secretary Carson. As I mentioned to you in the past, I am 
100 percent for getting this carbon monoxide issue settled, and 
I appreciate your help in helping getting that done. And as 
quickly as we can get it done, it is going to get done.
    Mr. Garcia of Illinois. Great. Thank you, Mr. Secretary. I 
accept your endorsement.
    Changing gears and returning back to a topic we were 
discussing previously, the mixed status rule, I would like to 
share with you a story about Joyce Bell. She was raised in 
Chicago and has always struggled to have clean, green, safe, 
and affordable housing. She has experienced homelessness, and, 
when not homeless, rented from slumlords. A landlord broke into 
her home and turned off her electrical services. She has lived 
in buildings that were foreclosed on, then taken over by banks, 
and in homes with dangerous conditions.
    She has been on the waiting list at the Chicago Housing 
Authority for over 5 years. There is an estimated shortfall of 
about 3.6 million affordable rental homes in this country, and 
every day that HUD doesn't have the resources to fill that 
shortfall, Joyce and many people like her suffer.
    According to your agency's own analysis, implementing 
replacing mixed status families under your proposal will 
increase the Federal cost of subsidizing units. Can you explain 
to Joyce why she should remain on the waiting list so that HUD 
can pay more money to implement a rule it acknowledges is 
unnecessary?
    Secretary Carson. Well, the people who are on the waiting 
list tend to have even greater needs than the ones who are not 
on the waiting list, which sort of bolsters the point that 
those are the people who perhaps should be getting the housing 
assistance.
    But I want to reemphasize the point that what we are doing 
is following the law of the land. When we begin to pick and 
choose which laws we are going to enforce, I think we lead to 
Congress. And if Congress doesn't like the rule, they have the 
power to change it.
    Mr. Garcia of Illinois. Well, thank you for that. Let me 
finish with this, Mr. Secretary. HUD's regulatory impact 
analysis states that, ``Perhaps the likeliest scenario would be 
that HUD would have to reduce the quantity and quality of 
assisted housing in response to higher costs.''
    I think my colleagues will have some follow-up questions on 
that.
    So, when you claim that evicting eligible children from 
their homes will free up space for those on the waiting list 
like Joyce, that simply isn't true. It is not consistent with 
what your staff analysis, career staff at HUD have concluded.
    Secretary Carson. Again, what they concluded is that the 
reason that the costs would be higher is because the people are 
more needy who are on the waiting list.
    Mr. Garcia of Illinois. Thank you, Madam Chairwoman.
    Chairwoman Waters. The gentlewoman from Texas, Ms. Garcia, 
is recognized for 5 minutes.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman.
    And first, I would like to say both to our witness and, in 
fact, even to a couple of Members from both sides of the aisle 
that I have found the word ``illegal'' to be very offensive, 
and I wish that more people would just stop using that word. As 
someone who has deeply held religious beliefs that we are all 
God's children, I also have a firm belief that no human being 
is illegal.
    So, Madam Chairwoman, I would hope that, in the future, we 
would discourage any testimony or any reference to that term. 
It is offensive, and it is something that should just be, quite 
frankly, stricken from the record.
    In line with that, I do want to follow up, Mr. Secretary, 
with some questions on the exchange that you had both with Mr. 
Williams and Mr. Vargas. Could you just make it clear for the 
record with a yes or no that, right now, as the law stands, 
noncitizens are not eligible for public housing?
    Secretary Carson. People who are not here legally. There is 
a difference between a noncitizen--
    Ms. Garcia of Texas. Sir, the question is noncitizens.
    Secretary Carson. There are some noncitizens who are 
eligible.
    Ms. Garcia of Texas. There are some?
    Secretary Carson. Yes.
    Ms. Garcia of Texas. Could you tell me which program, 
please?
    Secretary Carson. If you are in the United States legally 
and you are not a citizen, then you are a noncitizen, but that 
doesn't make you illegal.
    Ms. Garcia of Texas. Right. Because to me, sir, it is 
really difficult for anyone in the capacity of a housing 
authority official to determine who is here authorized or 
unauthorized. There are so many different categories of 
immigration law that I, frankly, do not see how anybody would 
be able to determine at that level whether someone is here 
legally or illegally.
    But the point is really not about the legal or illegal. The 
point is that they shouldn't even be called illegal. They are 
either here unauthorized. There are so many people who are 
brought here against their will, whether through human 
trafficking, through drug cartels. They may have just had an 
expiration of their visa.
    But, again, that underscores my point. There is just no way 
for someone to determine at a housing authority level that 
anyone is illegal, because, in fact, isn't it true that you 
prorate the rent now?
    Secretary Carson. It is true that you cannot prorate a roof 
over somebody's head.
    Ms. Garcia of Texas. That is not the question I am asking, 
sir. Do you not prorate the rent, that if there is someone 
there that you think is unauthorized, that person does not get 
that portion of the rent?
    Secretary Carson. The concept of prorating makes no sense 
in this context.
    Ms. Garcia of Texas. But, sir, the question is, isn't that, 
in fact, the process that you use now?
    Secretary Carson. You may call it prorating, but it doesn't 
make any sense, and that is not what it does.
    Ms. Garcia of Texas. Well, what do you call it, sir?
    Secretary Carson. I call it giving aid and assistance to 
people who are here illegally.
    Ms. Garcia of Texas. Well, it is interesting to me, because 
your staff seems to call it prorating and everybody else does.
    Let's go one on to another point about cost. Are you going 
to be able to reimburse all these housing authorities if this 
rule were put in place for the millions of dollars it is going 
to cost to evict these children?
    Secretary Carson. What fascinates me is how you can be so 
interested in the symptoms without wanting to get to the root 
cause of the problem.
    Ms. Garcia of Texas. Sir, I am the one asking the 
questions, with all due respect. There is about a $13 million 
cost that I have come across, and it is an estimate, only an 
estimate, in any of these evictions. Is HUD going to provide 
any funding for the local authorities if this rule is put in 
place?
    Secretary Carson. All of HUD's current programs are in 
place.
    Ms. Garcia of Texas. All right. So you are going to shift 
55,000 children from being with their families then to a 
homeless status. What is going to happen with these children? 
Have you thought this program through?
    Secretary Carson. Well, maybe what will happen with them is 
that you and Congress will do your job and solve the problem.
    Ms. Garcia of Texas. Well, sir, it is your problem now, and 
it is your solution to try to do this mixed status rule. I am 
asking, have you thought this through? Again, this 
Administration is attempting to separate children. Are you 
going to keep track of them? Are you going to be able to put 
them somewhere, or will they just be on the streets as little 
urchins?
    Secretary Carson. Well, as I mentioned multiple times, they 
have a 6-month deferral that can be requested. That can be 
renewed 2 times, which gives you 18 months.
    Ms. Garcia of Texas. So I take it you have no plans of how 
you are going to handle this.
    Secretary Carson. They have 18 months, which is enough time 
for Congress to engage in what is needed to be done to solve 
the problem.
    Ms. Garcia of Texas. Well, sir, I think it is your 
responsibility because it is your rule. And I would hope that 
this separation of children policy would be a little bit better 
thought through, because the last one has been a total disaster 
at the border.
    Moving on quickly, I am concerned that you all have HUD 
regulations that tell projects what they must have to make a 
home environmentally sound, you know, hot water, cold water, 
heating. But in the South, like in Texas and Houston, it is 
really extremely hot, but it does not include air conditioning. 
Why is air conditioning not as important as heating in New 
York?
    Secretary Carson. I think air conditioning is very 
important.
    Ms. Garcia of Texas. So why is it not included?
    Secretary Carson. It is in the process of being worked on 
right now.
    Ms. Garcia of Texas. Well, please keep me posted on that, 
sir. Thank you.
    Chairwoman Waters. The gentlewoman from Massachusetts, Ms. 
Pressley, is recognized for 5 minutes.
    Ms. Pressley. Thank you, Madam Chairwoman.
    Secretary Carson, I have waited a long time for this 
moment, but the residents of my district, the Seventh 
Congressional District of Massachusetts, have been waiting far 
longer for your agency to do its job. Colleagues across the 
aisle earlier were critical of the passion, many of them 
outraged, that we had expressed on this side of the aisle. I 
make no apologies for that. This matter is very, very personal.
    Let me be clear: Housing is a fundamental human right, and 
the displacement of families should be regarded as the public 
health crisis that it is. Mr. Secretary, your pioneering work 
in pediatric neurology is historic, and it is something to be 
commended. And so it pains me that your gifted hands and mine 
are doing the bidding and carrying the water of what I believe 
to be one of the most morally bankrupt Presidents in our 
nation's history.
    Increasing rents, evicting families. You mentioned that the 
operating room was a safe haven away from all the troubles of 
the world. A safe haven, that is exactly what a home should be 
and what every single person, in particular our children, 
deserve.
    Today, you are not here as a doctor or even as our surgeon 
general, which I think might be better suited for your talents, 
but as the official tasked with leading the agency overseeing 
our nation's crumbling housing stock. And for that, I do 
believe you are unqualified. You said this was not a political 
matter, but it does seem that political views are being played 
out in the policies that are being rolled out every single day. 
When you imply that people are living in public housing either 
because of a desire to be self-sufficient, questioning of work 
ethic, when we are eliminating stock but not increasing 
supply--people in the Massachusetts Seventh Congressional 
District would have to work 84 hours to afford a decent one-
bedroom at fair market rent.
    Doris Bunte was a former Massachusetts State Representative 
in my district and was the first African-American woman to hold 
the position of head of BHA, the first public housing tenant to 
lead a public housing agency in a major city. She said being 
poor is not a character flaw. I agree.
    But, again, given your medical background, perhaps you 
could weigh in on the health consequences of failing to invest 
in safe housing. Mr. Secretary, since I am short on time here, 
yes or no, is stable and safe housing a social determinant of 
health?
    Secretary Carson. It sounds like you have not been here and 
heard most of my testimony.
    Ms. Pressley. Please just answer the question, reclaiming 
my time. Yes or no, is stable and safe housing a social 
determinant of health?
    Secretary Carson. There is no question that housing is an 
important part of health.
    Ms. Pressley. Yes or no?
    Secretary Carson. No question that it is a part of heath.
    Ms. Pressley. It is well documented that health problems 
such as lead poisoning, asthma, and injuries from trips and 
falls, especially amongst our senior population, can be linked 
to substandard housing conditions. Combined, these conditions 
result in billions of dollars a year in healthcare costs. Many 
of those most at risk of developing these conditions reside in 
public and federally assisted housing.
    Yes or no, do you believe the substandard public housing 
conditions pose a risk to tenants' physical, mental, and 
emotional health if left unaddressed?
    Secretary Carson. Yes or no, can you ask me some questions 
yourself and stop reading--
    Ms. Pressley. You don't get to dictate what my line of 
questioning is. Reclaiming my time. You are a very smart man--
    Secretary Carson. You can reclaim it all you want.
    Ms. Pressley. --so you understand the question. Please 
answer it. Yes or no, if left unaddressed, which I believe they 
are unaddressed because this budget does not reflect the need, 
do you believe the substandard public housing conditions pose a 
risk to tenants' physical, mental, and emotional health?
    Secretary Carson. You already know the answer to that.
    Ms. Pressley. Yes or no?
    Secretary Carson. You know the answer.
    Ms. Pressley. Yes or no? I know the answer. Do you know the 
answer? Yes or no?
    Secretary Carson. Reclaiming my time.
    Ms. Pressley. You don't get to do that.
    Chairwoman Waters. The time belongs to the gentlelady.
    Ms. Pressley. The evidence is clear that if we do not 
invest the necessary funds today, we will pay the price in 
people's health tomorrow. And what is this Administration's 
response? Cuts, cuts to crucial funding like the Public Housing 
Operating Fund and the Family Self-Sufficiency Program, Section 
202 housing for the elderly, and Section 811 housing for 
persons with disabilities, and even the complete elimination of 
the Public Housing Capital Fund.
    These policies are devoid of empathy and humanity, and you 
have been talking in the abstract, but I want to get specific. 
There is a Ms. Norcross, a mother and a grandmother, living in 
Brighton in my district. She has raised her children and now 
cares for her grandchildren in a property with thick mold on 
the walls. Her son was recently hospitalized--look at the 
pictures here--because of bone tumors in his arm and leg. He 
needs surgery to save and improve his quality of life, but he 
won't get it because the family must have a sanitary, stable 
housing condition first. Their actual home literally poses a 
risk of post-op injury and infection.
    Her question to you is, what do they become? When you raise 
children in these conditions, what can they become? So yes or 
no, do Ms. Norcross and her family deserve to live in these 
conditions because they are poor?
    Secretary Carson. If you have listened to anything that I 
have to say--
    Ms. Pressley. Yes or no, do they deserve to live in these 
conditions because they are poor?
    Secretary Carson. --then you know very well--
    Ms. Pressley. Would you let your grandmother live in public 
housing? Would you let your grandmother live in public housing, 
yes or no?
    Secretary Carson. You know very well--
    Ms. Pressley. Under your watch and at your helm, would you 
allow your grandmother to live in public housing under these 
conditions?
    Secretary Carson. It would be very nice if you would stop--
    Ms. Pressley. You stated--
    Chairwoman Waters. The gentleman from Florida, Mr. Lawson, 
is recognized for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman. It is a great day 
in America.
    Dr. Carson, welcome to the committee. When I was 5 years 
old, we lost everything we had, our house, everything, and we 
moved a number of times, with 6 of us in the family. And my 
father had to recover, and eventually, we built a house. And I 
still own that house today after they are gone. So I do believe 
that if people work hard enough, and they want to survive, they 
can survive, sometimes without the government's help, because 
there was no government help then.
    But one of the things that I would like to do, as you said 
earlier in your testimony--and I lived in all kind of 
conditions--is to ask for the help from your Department to 
develop housing IRAs. And I am going to give you a chance to 
respond to that. And what I mean by that is to try to see if we 
can move people out of public housing into home ownership, and 
maybe a certain portion of the rent might go into the deferred 
account where eventually they can get enough money to get a 
down payment and be able to live in a home.
    The other thing, with all the millennials that we have now, 
is also to develop affordable, deductible, tax-deferred IRAs, 
so as they are renting all of this time that they can also set 
aside funds on a tax-deferred basis so they at one point will 
be able to have home ownership.
    And I really appreciated the opportunity when you came down 
to Jacksonville with Senator Rubio and myself to meet at Eureka 
Gardens on the conditions that we had down there with these 
management companies and so forth, which cause a lot of 
problems in a lot of public housing and is kind of hard to 
regulate.
    So, with those IRAs, I have been working on some 
legislation on that. I probably have a long ways to go to get 
the concept accepted, but I think it is something that we could 
move forward with is to move people--and I am going to stop 
right now where you can talk before my time runs out.
    Secretary Carson. Well, thank you. And thank you for the 
work that you have done on behalf of the people who, 
particularly in the Jacksonville area, were suffering very 
significantly.
    And that is what we should be doing, looking for ways to 
get those people into a different type of environment. And, 
really, that is what this is all about. It is not about 
ideology and who is evil and who is bad. It is about the people 
themselves. And when we can actually focus on them, that is how 
we are actually able to solve the problems.
    That is why I was able to come to an agreement with Mayor 
de Blasio in New York, even though we have very different views 
on things, by focusing on the people. That is always going to 
be the solution for the problems that we have here.
    Mr. Lawson. How do you feel about the deferred IRAs for 
housing?
    Secretary Carson. I think that is a very excellent idea. 
And we are trying to find better ways to expand that Family 
Self-Sufficiency Program. One of the ways that I have been 
talking about and suggesting is that people be able to take 
part of their monthly subsidy and put it into an escrow that is 
used specifically for the maintenance of their apartment. If 
they don't have a lot of maintenance, it just continues to 
grow. And then if they leave public housing within a certain 
period of time, they get all that money that has accumulated 
and can use it for a down payment, because there are a lot of 
people who can keep their head above water, but they never will 
be able to accumulate a down payment. And as I said earlier, 
the key method of wealth accumulation in this country is home 
ownership.
    Mr. Lawson. And I want to thank you for all your hard work, 
and I would like for your agency to work with us to try to see 
if we can craft some legislation to bring before Congress 
because I think this is a key thing we can do.
    Secretary Carson. I would love to work with you on that.
    Mr. Lawson. Okay. Thank you very much.
    Madam Chairwoman, with that, I yield back.
    Chairwoman Waters. Thank you.
    The gentleman from Minnesota, Mr. Phillips, is recognized 
for 5 minutes.
    Mr. Phillips. Thank you, Madam Chairwoman.
    And welcome, Mr. Secretary.
    Secretary Carson. Thank you.
    Mr. Phillips. One day in the distant future when you look 
back and reflect on your work at HUD, what do you want your 
legacy to be?
    Secretary Carson. Well, I am frequently asked about my 
legacy. And to be honest with you, I am not a legacy person. 
But I would very much like to see the organization turn from 
one that just takes care of people to one that sets people on a 
trajectory of success.
    Mr. Phillips. And in general terms, what is your philosophy 
relative to the role of our Federal Government in providing 
housing to the least advantaged in the country?
    Secretary Carson. Well, I think we definitely have a 
responsibility to take care of those who cannot take care of 
themselves. So, the elderly, the disabled, those who simply 
aren't able to do anything.
    But I think we have a responsibility to help those who are 
work-able to get on a trajectory of success where they begin to 
believe in themselves. And, as I said before, the most 
important resource that we have in this country is our people. 
And we only have 330 million people. That is not a lot of 
people compared to China that has 4 times that many, and India 
with 4 times that many. We have to compete against them. We 
will never be able to compete with them in the future if we 
don't concentrate on developing our people.
    Mr. Phillips. I would agree. And if I gave you a magic wand 
right now and you could wave it and effect one policy change 
that you think would lead us to that end, what might it be?
    Secretary Carson. If I could do one thing with a magic 
wand, I would make this country stop hating each other.
    Mr. Phillips. Hear, hear. I would join you with that.
    Secretary Carson. We would get a whole lot done.
    Mr. Phillips. I will share the wand with you.
    I do have a question about mortgage insurance premiums. 
And, as you know, this is before you became Secretary, but the 
Trump Administration suspended the proposed decrease by a 
quarter point in the premium rate. And I am just curious, have 
you considered that and your thoughts on it and why this 
indefinite suspension continues?
    Secretary Carson. Well, certainly when I first came, there 
was a lot of pressure to lower the premium by 25 basis points. 
And they said more people would be able to get mortgage 
guarantees. But if we had done that, we would have ended up 
with less than 2 percent, the capital ratio that is required by 
Congress. It would have ended up at 1.7 percent.
    Now, we are in reasonable shape, but we still have to be 
very careful because we have a lot of things that impinge upon 
the Mutual Mortgage Insurance Fund. So, it is done on a day-by-
day, week-by-week, month-by-month-basis, looking at the risks 
and making adjustments as necessary.
    Mr. Phillips. So, prospectively, a chance that it could be 
reduced?
    Secretary Carson. Always, absolutely.
    Mr. Phillips. I hear votes. My last question is on your 
position on establishing parity on mortgage insurance with the 
private market. Your thoughts?
    Secretary Carson. With the private market? We want to bring 
as much private equity into the system as we possibly can. 
Obviously, we need to have government backstops in order to 
provide confidence in the market. But we need to enact policies 
that encourage private capital to come in.
    Mr. Phillips. Agreed. And your thoughts relative to the 78-
percent threshold that, when reached, no longer requires 
mortgage insurance in the private market vis-a-vis FHA?
    Secretary Carson. I can understand why people come up with 
numbers like that. I think, again, we have to look at the risks 
that are involved and what are the risks that we are looking to 
mitigate against, and is there a one-size-that-fits-all model 
where 78 percent is the magic number? I am not sure that there 
is.
    Mr. Phillips. What number might you select if you could 
choose one?
    Secretary Carson. Well, I think it depends on the 
circumstances.
    Mr. Phillips. All right. Thank you, sir.
    I yield back.
    Chairwoman Waters. Thank you very much.
    I would like to thank Secretary Carson for his time today. 
The conversation that we had earlier about taking a break is 
not necessary now. We are going to go to our classified 
briefing, and there is no need for you to remain.
    The Chair notes that some Members may have additional 
questions for this witness, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to this witness and to place his responses in the record. The 
Chair asks the Secretary to please respond as promply as you 
are able to. Also, without objection, Members will have 5 
legislative days to submit extraneous materials to the Chair 
for inclusion in the record.
    And, with that, this hearing is adjourned.
    [Whereupon, at 1:35 p.m., the hearing was adjourned.]

                            A P P E N D I X

                              May 21, 2019
</pre></body></html>
